          Office of Inspector General
          Audit Report




       RESOURCE CONSERVATION AND RECOVERY ACT



Report on the Tank Waste Remediation System (TWRS)
       Program for the Hanford Federal Facility
             Report No. WAD 99-000421-2000-P-00012

                        March 30, 2000
Inspector General Division   Western Audit Division
Conducting the Audit         Seattle Branch Office


Region Covered               Region 10


Program Office Involved      Office of Waste and Chemicals Management
                                             March 30, 2000

MEMORANDUM

SUBJECT:       Tank Waste Remediation System Program for the Hanford Federal Facility
               Audit Report No. WAD 99-000421-2000-P-00012

FROM:          Truman R. Beeler
               Divisional Inspector General for Audits
               Western Audit Division

TO:            Chuck Clarke
               Regional Administrator
               EPA Region 10

   Attached is our final report titled Tank Waste Remediation System (TWRS) Program for the
Hanford Federal Facility. The objective of the audit was to determine if the State of
Washington’s Department of Ecology and EPA Region 10's oversight of the TWRS Program is
sufficient to ensure compliance with the Resource Conservation and Recovery Act (RCRA) and
provides adequate protection to human health and the environment.

   We concluded that the Department of Ecology and Region 10 need to improve their oversight
and enforcement of RCRA requirements that apply to Hanford’s TWRS Program. We believe
that improvements are necessary to prevent threats to public health and the environment.

    This audit report contains findings that describe problems the Office of Inspector General has
identified and corrective actions the OIG recommends. This audit report represents the opinion
of the OIG and the findings contained in this audit report do not necessarily represent the final
EPA position. Final determinations on matters in this audit report will be made by EPA
managers in accordance with established EPA audit resolution procedures. Accordingly, the
findings described in this audit report are not binding upon EPA in any enforcement proceeding
brought by EPA or the Department of Justice.

ACTION REQUIRED

   In accordance with EPA Order 2750, you, as the Action Official, are required to provide our
office with a written response to the audit report within 90 days of the report date. The response
should address all recommendations. For corrective actions planned but not completed by the
response date, reference to specific milestone dates will assist us in deciding whether to close
this report. We have no objection to the release of this report to the public.

   We appreciate the cooperation from your staff as well as the staff of the Washington
Department of Ecology during this audit. Should you or your staff have any questions about this
report, please call me at (415) 744-2445, or Mike Owen of our Seattle Office at (206) 553-2542.

Attachment

Distribution: Appendix C
                         EXECUTIVE SUMMARY


INTRODUCTION
The Resource Conservation and Recovery Act (RCRA), Subtitle C establishes a program for
managing hazardous waste from generation to disposal. The State of Washington’s Hazardous
Waste Program was initially authorized by EPA in 1986 and was revised to include regulation of
radioactive mixed wastes in 1987. This authorization places primary responsibility for
implementation and enforcement of RCRA on the State’s Department of Ecology (Ecology).

In May 1989, Ecology, Region 10 (the Region), and the United States Department of Energy
(DOE) signed the Hanford Federal Facility Agreement and Consent Order (FFACO). The
FFACO requires DOE to: (i) bring its Hanford Federal Facility into compliance with RCRA and
the State’s Hazardous Waste Management Act; and (ii) establish a framework and schedule for
implementing response actions in accordance with the Comprehensive Environmental Response,
Compensation, and Liability Act. Under the agreement, Hanford’s single shell tanks (SSTs) and
double shell tanks (DSTs) containing hazardous and highly radioactive waste were designated as
RCRA units. DOE established the Tank Waste Remediation System (TWRS) Program for
Hanford to ensure that the tank waste is stored, treated, and immobilized in a safe,
environmentally sound, and cost-effective manner.



OBJECTIVE
The objective of the audit was to determine if Ecology’s and the Region’s oversight of DOE’s
TWRS Program is sufficient to ensure compliance with RCRA and provides adequate protection
to human health and the environment.



RESULTS IN BRIEF
Ecology and the Region need to improve their oversight and enforcement of RCRA requirements
that apply to Hanford’s TWRS Program. Significant improvement is needed because:
(i) progress with the TWRS Program has not been sufficient to ensure compliance with RCRA
and to provide adequate protection to human health and the environment; (ii) sufficient oversight
has not been provided for some safety issues involving the SSTs and DSTs; (iii) inspection
coverage for the SSTs and DSTs has not met RCRA and Performance Partnership Agreement


                                                i                          Report No. 2000-P-00012
(PPA) requirements; and (iv) leak detection systems for some SSTs and leak investigation
procedures for the tanks do not provide adequate protection to the environment.

Major Delays Threaten The Environment

Progress with Hanford’s TWRS Program has not been sufficient to ensure compliance with
RCRA and to provide adequate protection to human health and the environment. Although the
Hanford FFACO established major milestones for stabilizing SSTs, treating waste from SSTs
and DSTs, and closing the SSTs, Ecology has been unsuccessful in obtaining DOE’s compliance
with the milestones. Specifically, milestones for: (i) interim stabilization of the SSTs have been
consistently missed and completion of interim stabilization will be delayed by 9 years; (ii) start of
treatment of tank wastes will be delayed at least 4 years and the completion of treatment may be
delayed up to 19 years; (iii) initiation of waste retrieval from SST C-106, a “Watch List” tank,
was not met and waste retrieval was delayed for over a year; and (iv) retrieval of waste from, and
the closure of all SSTs may be delayed at least 15 years and 9 years, respectively. In addition,
DOE’s evaluation of DST storage capacity requirements was deficient and did not meet
milestone requirements.

At least 1 million gallons of highly toxic and radioactive waste from 67 of Hanford’s 149 SSTs
has already leaked, and some of the waste has reached the groundwater. There are about 35
million gallons of high level radioactive waste remaining in the 149 SSTs and about 19 million
gallons of waste stored in 28 DSTs. Continued delays in interim stabilization and delays in
treatment and retrieval of the tank wastes could result in the use of both the SSTs and DSTs
significantly beyond the schedule established by the FFACO. These delays could significantly
increase the risks of releases into the environment.

We attribute the conditions to three principal causes. First, DOE has not demonstrated the ability
or sufficient commitment to manage the TWRS Program to meet FFACO milestones and to
provide adequate protection to human health and the environment. Second, DOE has not
sufficiently funded all TWRS Program activities. Third, Ecology and the Region have not
developed and implemented an effective oversight and enforcement strategy.

Oversight Of Tank Safety Issues Need Attention

DOE has responsibility for compliance with State and Federal hazardous waste regulatory
requirements. However, Ecology has not provided sufficient oversight of some safety issues
involving SSTs and DSTs. Specifically, Ecology: (i) has not ensured that DOE satisfactorily
met a September 1998 FFACO milestone for the resolution of a flammable gas safety question
for SSTs and DSTs; and (ii) was not timely in providing oversight on DOE’s resolution of
serious waste level growth and gas retention safety issues involving DST SY-101.

Unresolved flammable gas safety issues have caused significant delays in stabilizing the SSTs,
and may cause additional delays in the TWRS Program and increased risks to human health and


                                                 ii                          Report No. 2000-P-00012
the environment. In addition, DST SY-101 may eventually lose double containment unless the
safety issues for the tank are adequately and timely resolved, and plans to transfer the waste to
another tank may create similar safety problems in the receiving tank. A loss of double
containment increases the risk of a release of hazardous and radioactive wastes into the soil and
groundwater.

Ecology was not able to effectively oversee and evaluate DOE’s resolution of safety issues
mainly because it has not placed sufficient emphasis on filling a safety position supporting the
TWRS Program. This position became vacant during August 1998 and was not filled at the time
of our audit in September 1999.

Ecology Is Not Conducting Enough Tank Inspections

Although DOE is responsible for compliance with State and Federal hazardous waste regulations,
Ecology, as the lead regulator, did not conduct a sufficient number of tank inspections to assess
DOE compliance with RCRA.

Specifically, Ecology inspected only 22 percent of the tanks over a period of approximately 7
years even though RCRA, as amended by the Federal Facility Compliance Act, required
thorough annual inspections of Federal facilities. In addition, inspection coverage for the tanks
did not meet inspection commitments specified in PPA workplans for the State’s fiscals 1998
and 1999. Ecology had not increased the number of inspections although 7 of the 8 inspections
conducted during the 7-year period ended February 1999 identified serious compliance issues.

These conditions occurred because: (i) Ecology was not placing a sufficiently high priority on
conducting tank inspections; and (ii) the Region was not monitoring PPA inspection
commitments for Hanford.

Leak Detection And Investigation Procedures Do Not Provide Adequate Protection To The
Environment

Effective leak detection systems have not been installed by DOE for all Hanford tanks. In
addition, DOE has not always conducted adequate, timely, or documented investigations of
suspected tank leaks. Specifically, we determined: (i) original leak detection systems installed in
58 of the 149 SSTs were no longer effective; (ii) an investigation had not been conducted into a
possible ongoing leak from one SST that leaked in the past; (iii) investigations were not
completed timely for suspected leaks from two SSTs that leaked in the past; and (iv) investigation
results of a suspected leak from one SST were not documented.

These conditions occurred mainly because Ecology has not placed sufficient emphasis on
ensuring that DOE has implemented an effective leak detection and investigation program.
Specifically, Ecology has not: (i) required DOE to establish a leak detection program for all SSTs



                                                iii                         Report No. 2000-P-00012
that meets State and Federal regulatory requirements; and (ii) has not provided sufficient
oversight and enforcement over DOE’s leak assessment activities.

As noted in Chapter 2, at least 1 million gallons of highly toxic and radioactive waste has leaked
from 67 of Hanford’s 149 SSTs, some of which has already reached the groundwater. Without
effective leak detection systems and an effective leak investigation process, there is no assurance
that tank leaks will be identified and remediated timely. Minimizing the extent of leaks and an
effective leak investigation process for the SSTs are critical to preventing additional groundwater
contamination.



RECOMMENDATIONS
Principal recommendations to the Regional Administrator are to:

1.     Negotiate with Ecology to address oversight and enforcement responsibilities regarding
       DOE compliance with FFACO and RCRA requirements as part of the fiscal 2000/2001
       PPA process.

2.     Consult with EPA National Program Managers to determine what actions can be taken at
       the EPA Headquarters level to achieve a higher priority, including receiving funding, on
       cleanup of the Hanford tanks.

3.     Report the weaknesses in the Hanford TWRS Program as a management control
       deficiency in the annual Federal Managers Financial Integrity Act assurance letter to the
       EPA Administrator.

4.     Negotiate fiscal 2000/2001 PPA commitments with Ecology as necessary to oversee
       TWRS Program safety issues.

5.     Establish annual EPA and Ecology inspection commitments through the fiscal 2000/2001
       PPA process in accordance with the Compliance Assurance Agreement Between the
       Washington Department of Ecology and the United States Environmental Protection
       Agency for the Hazardous Waste Program (1997), including a mid-year and end-of-year
       review of commitment.

6.     Assist Ecology in preparing a strategy for addressing DOE actions for SSTs not currently
       in compliance with interim status leak detection requirements.

7.     Negotiate with Ecology appropriate inspection and enforcement responses to suspected
       tank leaks under interim status requirements and document theses commitments through
       the fiscal 2000/2001 PPA process.


                                                iv                          Report No. 2000-P-00012
REGION 10 AND STATE DEPARTMENT OF ECOLOGY
COMMENTS AND OIG EVALUATION
A draft report was provided to the Region and Ecology on January 21, 2000. The Region and
Ecology submitted a joint response on February 22, 2000 and a revised implementation schedule
for the report recommendations on March 10, 2000. The response is included as APPENDIX B
to this report. As reflected in the following excerpts from the response, the Region and Ecology
concurred with the report facts and recommendations.

       After review of the report and each of the recommendations, we concur in full
       with both the facts as presented in each finding, and with the associated
       recommendations. EPA and Ecology fully support the findings identified in the
       audit report, particularly the lack of progress on the part of Department of Energy
       (DOE) in addressing the significant threats posed by Hanford tank wastes. We
       intend to move forward in a timely manner with each of the recommendations,
       and believe our current activities, described below, demonstrate our resolve to
       address delays in the TWRS program...

       As documented in the audit report, Ecology and EPA have engaged in
       negotiations with the Department of Energy (DOE) to establish milestones in the
       Hanford Federal Facility Agreement and Consent Order (Tri-Party Agreement)
       relating to tank waste retrieval, construction and operation of a tank waste
       treatment system, and compliance concerns related with the RCRA Land Disposal
       Restriction (LDR) program. Despite extensive efforts on the part of both agencies,
       these negotiations concluded on January 31, 2000 with no agreement reached.
       DOE’s eleventh-hour proposals for both tank waste treatment milestones and LDR
       dispute resolution served only to reinforce EPA’s and Ecology’s belief that DOE
       remains unwilling to commit to necessary work and be accountable for progress
       toward enforceable milestones. As a result, Ecology asked EPA to join in
       development and issuance of a final dispute determination to resolve these issues.
       EPA responded in a February 3, 2000 letter to Ecology strongly endorsing
       Ecology’s position, and stating in no uncertain terms EPA’s concern with DOE
       failures to complete work, fulfill milestone commitments, and demonstrate
       accountability for progress with Hanford environmental cleanup. We believe that
       these clear and decisive positions established by EPA and Ecology with respect to
       tank waste and LDR compliance are fully consistent with recommendations in the
       audit report, and reflect our commitment to implementing the audit
       recommendations.

We agree with the corrective actions which have been initiated or planned by the Region and
Ecology. Their response to all of the report’s recommendations reflect actions that should


                                                v                          Report No. 2000-P-00012
improve oversight and enforcement of RCRA requirements that pertain to DOE’s TWRS
Program.




                                           vi                       Report No. 2000-P-00012
                                     TABLE OF CONTENTS

                                                                                                                                 Page

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ix

1- INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       1
      PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   1
      BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            1
      AUDIT SCOPE & METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                             7
      PRIOR AUDIT COVERAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    7

2 - MAJOR DELAYS THREATEN THE ENVIRONMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
      BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
      INTERIM STABILIZATION MILESTONES WERE MISSED
        AND DELAYED BY 9 YEARS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
      START AND COMPLETION OF WASTE TREATMENT WAS DELAYED . . . . . . 16
      MILESTONE FOR INITIATION OF WASTE RETRIEVAL
       FOR SST C-106 WAS NOT MET . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
      SST WASTE RETRIEVAL AND CLOSURE MAY BE DELAYED . . . . . . . . . . . . . 24
      ANNUAL DST OPERATIONAL WASTE VOLUME REPORT WAS DEFICIENT . 26
      DELAYS INCREASE RISKS TO THE ENVIRONMENT . . . . . . . . . . . . . . . . . . . . . 27
      REASONS FOR LACK OF PROGRAM PROGRESS AND COMPLIANCE . . . . . . . 29
      CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
      RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35
      REGIONS’S AND ECOLOGY’S COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36

3 - OVERSIGHT OF TANK SAFETY ISSUES NEED ATTENTION . . . . . . . . . . . . . . . . . . .                                            39
      BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          39
      RESOLUTION OF FLAMMABLE GAS SAFETY ISSUE WAS NOT VERIFIED . . .                                                               40
      OVERSIGHT OF SAFETY ISSUES FOR SY-101 WAS NOT TIMELY . . . . . . . . . .                                                      41
      UNRESOLVED SAFETY ISSUES INCREASE RISKS TO
        TO THE ENVIRONMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  44
      ECOLOGY HAS NOT PLACED SUFFICIENT EMPHASIS ON FILLING
        SAFETY POSITION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           45
      RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 46
      REGION’S AND ECOLOGY’S COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                   47


                                                                   vii                                   Report No. 2000-P-00012
4 - ECOLOGY IS NOT CONDUCTING ENOUGH TANK INSPECTIONS . . . . . . . . . . . . . .                                                 49
       BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       49
       INSPECTION COVERAGE WAS INADEQUATE . . . . . . . . . . . . . . . . . . . . . . . . . . .                                   50
       REASONS FOR INSUFFICIENT INSPECTION COVERAGE . . . . . . . . . . . . . . . . . .                                           54
       DOE VIOLATIONS AND RELEASES OF HAZARDOUS WASTE MAY
         GO UNDETECTED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          55
       RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             55
       REGION’S AND ECOLOGY’S COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                56

5 - LEAK DETECTION AND INVESTIGATION PROCEDURES DO NOT PROVIDE
     ADEQUATE PROTECTION TO THE ENVIRONMENT . . . . . . . . . . . . . . . . . . . . . . . .                                       57
       BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       58
       LEAK DETECTION SYSTEMS WERE NOT INSTALLED . . . . . . . . . . . . . . . . . . . .                                          58
       LEAK INVESTIGATION WAS NOT CONDUCTED . . . . . . . . . . . . . . . . . . . . . . . . .                                     60
       INVESTIGATIONS WERE NOT TIMELY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                           61
       LEAK INVESTIGATION WAS NOT DOCUMENTED . . . . . . . . . . . . . . . . . . . . . . .                                        64
       INSUFFICIENT EMPHASIS PLACED ON LEAK DETECTION AND
         INVESTIGATION PROGRAM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  66
       CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   66
       RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              67
       REGION’S AND ECOLOGY’S COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                67

EXHIBITS

1 - TIMELINE OF SELECTED FFACO MILESTONES FOR THE TWRS PROGRAM
     AND ACTUAL OR PROPOSED REVISIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 69

APPENDICES

A - AUDIT SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 71

B - REGION 10 AND STATE DEPARTMENT OF ECOLOGY RESPONSE TO
    THE DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 75

C - REPORT DISTRIBUTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 88




                                                                viii                                  Report No. 2000-P-00012
                  ABBREVIATIONS

AIP       Agreement in Principle
DOE       Department of Energy
Ecology   Washington Department of Ecology
EPA       Environmental Protection Agency
CERCLA    Comprehensive Environmental Response, Compensation and Liability
CFR       Act
DST       Code of Federal Regulations
FFACO     Double Shell Tank
FMFIA     Hanford Federal Facility Agreement and Consent Order
GAO       Federal Managers’ Financial Integrity Act
HLW       General Accounting Office
HTI       High Level (Radioactive) Waste
HWMA      Hanford Tanks Initiative
IAMIT     Washington’s Hazardous Waste Management Act
LAW       Interagency Management Integration Team
MOU       Low Activity (Radioactive) Waste
OIG       Memorandum of Understanding
OSD       Office of Inspector General
OWCM      DOE Operating Specification Document
PCHB      EPA Region 10 Office of Waste and Chemicals Management
PPA       Washington Pollution Control Hearing Board
RCRA      Performance Partnership Agreement
SST       Resource Conservation and Recovery Act
TAP       Single Shell Tank
TSD       Tank Advisory Panel
TWRS      RCRA Treatment Storage and Disposal Unit
USQ       Tank Waste Remediation System
WAC       Unreviewed Safety Question
          Washington Administrative Code




                                 ix                      Report No. 2000-P-00012
[This page was intentionally left blank]




                   x                       Report No. 2000-P-00012
                    CHAPTER 1
                   INTRODUCTION


PURPOSE      The objective of the audit was to determine if the State of
             Washington’s Department of Ecology (Ecology) and EPA Region
             10's oversight of the Department of Energy’s (DOE’s) Tank Waste
             Remediation System (TWRS) Program is sufficient to ensure
             compliance with the Resource Conservation and Recovery Act
             (RCRA) and provides adequate protection to human health and the
             environment.


BACKGROUND

The Site     The Hanford Site is in southeastern Washington State and occupies
             about 560 square miles. The Columbia River, one of the largest
             rivers in the United States, runs through more than 50 miles of the
             site. From 1943 to 1989 Hanford’s principal mission was the




                         Hanford’s First (“B”) Reactor, Completed 1944
                             (Source: Phil Weihrouch, EPA OIG)

                               1                           Report No. 2000-P-00012
                 production of weapons-grade plutonium. To produce plutonium,
                 uranium metal was irradiated in a plutonium production reactor.
                 The irradiated uranium metal, also known as spent fuel, was cooled
                 and treated in a chemical separations plant where plutonium was
                 separated from uranium and many other radioactive by-products.
                 Large amounts of spent fuel were generated to produce enough
                 plutonium to make a nuclear weapon. The chemical separations
                 process resulted in several hundred thousand metric tons of
                 radioactive and hazardous waste. Hanford is said to be the world’s
                 largest environmental cleanup project.

The Tank Farms   The most dangerous radioactive, hazardous, and mixed waste is
                 stored in 177 large underground storage tanks in groups called tank
                 farms. The waste includes more than 177 million curies (a unit
                 quantity of radioactive nuclide) in approximately 54 million
                 gallons of liquid, sludge, and saltcake (generally a semi-solid
                 crusty material). These tanks contain about 60 percent of DOE’s
                 nationwide inventory of high level liquid wastes. High level waste
                 is the most dangerous radioactive waste and requires radiation
                 shielding, special handling techniques, and when disposed of,
                 special measures to isolate it from humans and the environment.
                 The radioisotopes cesium-137 and strontium-90 account for
                 essentially all of the radioactivity in the tanks and will remain the
                 primary individual contributors to the total radioactivity over the
                 next 150 to 200 years.

                 In the 1940's through the early 1960's, 149 single-shell tanks
                 (SSTs) with capacities of 55,000 to 1 million gallons were built to
                 store high-level waste in a region near the center of the site referred
                 to as the 200 Areas. During the 1950's, uranium was extracted
                 from some of the tanks for reprocessing, an action that introduced
                 new chemicals into the tanks. Also, chemicals were added to the
                 tanks to settle radionuclides from the liquid to the bottom of the
                 tanks. The low-activity liquid waste that resulted was sent to
                 shallow subsurface drainfields where it percolated into the soil.
                 This process resulted in higher concentrations of heat-generating
                 cesium-137 and strontium-90 in the tanks, which threaten the
                 integrity of the tanks. The SSTs had a design life of approximately
                 20 years. Leakage from these tanks to the underlying soil was
                 suspected in 1956 and confirmed in 1961. Based on historical
                 data, one additional tank begins to leak each year.




                                    2                           Report No. 2000-P-00012
                   By the late 1980's, 67 tanks were known or suspected leakers, and
                   an estimated 1 million gallons of high-level waste had been
                   released to the soil beneath the 200 Areas. To address concerns
                   with the design of the SSTs, 28 double-shell tanks (DSTs) with
                   capacities from 1 million gallons to 1.16 million gallons were
                   constructed between 1968 and 1986. Of the 54 million gallons of
                   waste stored in the 177 tanks, approximately 19 million gallons (35
                   percent) is stored in the DSTs. Therefore, the majority of the waste
                   is still stored in the deteriorating SSTs. In 1998 Ecology reported
                   that “There are two types of tanks at Hanford, those that have
                   leaked and those that will leak.”

                   Some of the activities under DOE’s TWRS Program include:
                   (i) interim stabilization, a process of pumping liquid mixed waste
                   from leaking SSTs to DSTs; (ii) waste treatment or vitrification, a
                   process of converting the tank wastes into a solid form for
                   permanent storage; (iii) waste retrieval; and (iv) tank closure. As of
                   September 1999, interim stabilization and pilot work on waste
                   retrieval were in process. Waste treatment, completion of waste
                   retrieval, and tank closure were still in the planning phases and
                   were yet to be completed.

Threats to Human   Hazardous waste in the tanks poses threats to human health and the
Health and the     environment because of the potential for release of high level
Environment        radioactive waste through fire or explosion and through leaks into
                   groundwater.

                   DOE reported that the accident with the most severe potential
                   health impacts is hydrogen gas fire in a tank. At least 25 tanks are
                   estimated to be generating hydrogen gas in sufficient quantities to
                   cause a fire if ignited. If such a fire were to occur, DOE estimates
                   that there is the potential for up to 22 latent cancer fatalities from
                   direct radiation and inhalation of radioactive contaminants. The
                   longer the waste remains in the tanks, the higher the probability
                   that a hydrogen gas fire would occur. With respect to the risk of a
                   tank explosion, while it appears considerably less than in the early
                   1990s, there is still some risk due to continuing tank safety issues.

                   Approximately 200 square miles of Hanford Site groundwater is
                   contaminated from radioactive and hazardous waste. Groundwater
                   occurs at a depth of 230 to over 300 feet below the ground surface.
                   Past plutonium production and disposal practices resulted in
                   extensive contamination in the soils. Some of the contamination


                                      3                           Report No. 2000-P-00012
                           Hanford Single Shell Tank Farm Under Construction Circa 1944
                         (Source: DOE Integrated Management Plan for the Hanford TWRS,
                                                   January 1999)

                     was caused from tank waste management practices as well as leaks
                     from the tanks. Over time, the contaminants in the soils have been
                     carried down to the groundwater and toward the Columbia River.
                     DOE currently has no process to remove all contaminants from the
                     groundwater before they reach the river.

                     Contaminants in the groundwater include arsenic, chromium,
                     cyanide, carbon tetrachloride, cobalt-60, strontium-90, technetium-
                     99, iodine-129, cesium-137, tritium, and plutonium-239 and -240.
                     These materials have toxic, carcinogenic, mutagenic, or teratogenic
                     effects on humans and other life forms. The migration of such
                     materials presents a threat to the public health, welfare and the
                     environment. The contaminants in the groundwater could reach
                     the Columbia River in as little as 20 years and continue for the next
                     5,000 years. The Columbia River is heavily used for irrigation by
                     agriculture interests in the area and is a major contributor to the
                     economies of the cities of Kennewick, Pasco, and Richland,
                     Washington. Approximately 450,000 people reside within a 50
                     miles radius of Hanford’s 200 Areas and rely on the river for
                     drinking water, employment, and/or recreation.

Regulatory History   The State of Washington’s Hazardous Waste Program was initially
                     authorized by EPA in 1986 and was revised to include regulation
                     of radioactive mixed wastes in 1987. This authorization gave the
                     State authority to operate its Hazardous Waste Program in lieu of


                                       4                           Report No. 2000-P-00012
the Federal RCRA Program. The authorization places primary
implementation and enforcement responsibility of RCRA on the
State. Washington’s Hazardous Waste Program is executed
through the State’s Hazardous Waste Management Act (HWMA)
and the implementing regulations, the Dangerous Waste
Regulations.

In about 1984, Ecology staff began inquiring about RCRA
compliance at Hanford’s tank farms and other hazardous waste
sites and operations. During the mid to late 1980's, Ecology and the
Region performed RCRA/HWMA compliance inspections at
Hanford, including the tank farms, noting many non-compliant
areas. In 1988, spurred by the outstanding compliance problems at
Hanford, Ecology, EPA, and DOE negotiated a combined Federal
Facility Agreement under the Comprehensive Environmental
Response, Compensation and Liability Act (CERCLA) and a
Consent Order under RCRA/HWMA. The document, known as the
Hanford Federal Facility Agreement and Consent Order (FFACO),
required DOE to undertake cleanup actions at many existing waste
sites, to obtain operating permits or undergo closure for RCRA
Treatment, Storage, and Disposal units (TSDs), and other cleanup
and compliance actions. The three parties signed the original
FFACO in May 1989. Under the agreement, Hanford’s SSTs and
DSTs were designated as RCRA units.

In 1993 DOE sought to renegotiate the FFACO requirements for
the tank systems, in order to incorporate new information and
planning for them. DOE’s new tank program, known as the TWRS
Program was signed in a revised FFACO in January 1994 and was
established to ensure that the tank waste is stored, treated, and
immobilized in a safe, environmentally sound, and cost-effective
manner.

The 1994 revision of the FFACO included a commitment from
DOE to retrieve all of the waste from the SSTs and vitrify
(stabilization within a molten glass matrix) tank waste from all
SSTs and DSTs. The deadline for completing waste vitrification
was 2028. The new amendment also required work to: (i) address
tank safety issues; (ii) continue stabilizing the SSTs; (iii) construct
new DST capacity; (iv) upgrade systems in tank farms;
(v) continue characterizing the tank waste; and (vi) and close all
SSTs.



                   5                            Report No. 2000-P-00012
                     In December 1995 the TWRS components of the FFACO were
                     further modified to allow a “privatized” approach to a tank waste
                     vitrification facility. This revision resulted in a revised schedule
                     for the vitrification facilities, but no change to the other tank
                     related work.

Regulatory Role of   The FFACO defines the regulatory roles and responsibilities of
Ecology and the      Ecology and the Region for the Hanford Facility. The agreement
Region               designates Ecology as the lead regulatory agency for all RCRA
                     units, including the SSTs and DSTs. As the lead regulatory
                     agency, Ecology is required to provide regulatory oversight,
                     including preparation of responses to documents submitted by
                     DOE. The FFACO designates the Region as the non-lead
                     regulatory agency for the SSTS and DSTs and specifies that the
                     Region will not assign staff to provide any oversight or support of
                     work at the RCRA units. However, the agreement does not
                     eliminate the Region’s responsibility for oversight of Ecology’s
                     exercise of its authorized RCRA authorities.

                     The Memorandum of Understanding (MOU) between Ecology and
                     the Region concerning the Hanford FFACO specifies that Ecology
                     is the single point of contact, regulator and decision maker for all
                     activities subject to the State’s Dangerous Waste Regulations. The
                     MOU also states that the Region will not oversee activity subject to




                               Hanford “N” Reactor Adjacent to the Columbia River
                                      (Source: Phil Weihrouch, EPA OIG)


                                        6                           Report No. 2000-P-00012
                State rules, including rules that have not yet been authorized by the
                Region but which are substantially equivalent to RCRA. However,
                the MOU specifies that the Region may become involved in
                regulatory oversight when requested by Ecology or as otherwise
                appropriate as part of the Region’s State program oversight
                responsibilities.

                Ecology is the agency mandated by the Washington State
                Legislature to administer the State’s federally approved RCRA
                Program. Ecology’s Nuclear Waste Program is responsible for all
                dangerous/hazardous waste cleanup program activities at the
                Hanford Federal Facility. This responsibility includes oversight
                and enforcement of TWRS components of the FFACO. The
                Nuclear Waste Program has offices located in Olympia and
                Kennewick, Washington and currently has about 70 staff. Most of
                these staff are assigned to its Kennewick office.

                The Region’s Office of Waste and Chemicals Management
                (OWCM) administers the Federal RCRA Program within
                Region 10. At Ecology’s request, the OWCM and the Region’s
                Office of Regional Counsel provide technical, regulatory, and legal
                support for the TWRS Program.


AUDIT SCOPE &   We performed this audit in accordance with the Government
METHODOLOGY     Auditing Standards (1994 Revision) issued by the Comptroller
                General of the United States as they apply to performance audits.
                Our review included tests of program records and other auditing
                procedures we considered necessary for the purposes of expressing
                an opinion based on our audit objectives. We also reviewed the
                Federal Manager’s Financial Integrity Act reports for 1997 and
                1998. The reports did not identify any material weaknesses, or
                vulnerabilities, relating to the issues discussed in this report. See
                APPENDIX A for scope and methodology details.


PRIOR AUDIT     There have been no prior audits performed by the EPA Office of
COVERAGE        Inspector General (OIG) on Ecology’s and the Region’s oversight
                of the TWRS Program. However, GAO has performed a number of
                audits covering various aspects of DOE’s management of the
                TWRS Program. The most recent reports entitled Nuclear Waste:
                Department of Energy’s Hanford Tank Waste Project-Schedule,
                Cost, and Management Issues (GAO/RCED-99-13, October 1998)

                                   7                           Report No. 2000-P-00012
and Nuclear Waste: Understanding of Waste Migration at Hanford
is Inadequate for Key Decisions (GAO/RCED-98-80, March 1998)
identified weaknesses in DOE’s management of the program and
are discussed in Chapter 2.

Recent audits conducted by the DOE Office of Inspector also have
identified weaknesses in DOE’s management of the Hanford tank
farms. In 1995, the OIG issued a report entitled Audit of the
Richland Operations Office Site Characterization Program
(DOE/IG-0368, March 1995) that concluded: (i) the reduction of
the completion period for core sampling of high level radioactive
waste tanks from 6 to 3 years increased the characterization costs
without a similar increase in benefits and (ii) renegotiation of the
FFACO milestone that required 80 percent of low level waste
sample analyses be performed within 25 miles of Hanford will add
$46 million over the next 8 years to the cost of sample analyses.

The DOE OIG also issued a report in 1993 entitled DOE
Management of High-Level Waste at the Hanford Site
(DOE/IG-0325, April 1993) that concluded DOE managed the
Hanford remediation program as a number of separate projects not
fully integrated into one major acquisition system. Consequently,
program costs were obscured, and DOE had not clearly defined
systems requirements or developed overall cost and schedule
baselines. They found a vast array of technical uncertainties,
including tank safety and inadequate information about the makeup
of the tank waste, that could significantly affect the program’s cost
and ultimate success. At the time of our fieldwork, the DOE OIG
was conducting a follow up audit on the issues addressed in their
1993 report.




                  8                           Report No. 2000-P-00012
                CHAPTER 2
MAJOR DELAYS THREATEN THE ENVIRONMENT


         Progress with Hanford’s TWRS Program has not been sufficient to
         ensure compliance with RCRA and to provide adequate protection
         to human health and the environment. Although the Hanford
         FFACO established major milestones for stabilizing SSTs, treating
         waste from SSTs and DSTs, and closing the SSTs, Ecology has
         been unsuccessful in obtaining DOE’s compliance with the
         milestones. Specifically:

         •      Milestones for interim stabilization of the SSTs have been
                consistently missed and completion of interim stabilization
                will be delayed by 9 years.

         •      Milestones for the start of treatment of tank wastes will be
                delayed at least 4 years and the completion of treatment
                may be delayed up to 19 years.

         •      The milestone to initiate waste retrieval from SST C-106, a
                “Watch List” tank, was not met and waste retrieval was
                delayed for over a year.

         •      Milestones for the retrieval of waste from and the closure
                of all SSTs may be delayed at least 15 years and 9 years,
                respectively.

         In addition, DOE’s evaluation of DST storage capacity
         requirements was deficient and did not meet milestone
         requirements.

         At least 1 million gallons of highly toxic and radioactive waste
         from 67 of Hanford’s 149 SSTs has already leaked, and some of
         the waste has reached the groundwater. There are about 35
         million gallons of high level radioactive waste remaining in the
         149 SSTs and about 19 million gallons of waste stored in 28
         DSTs. Continued delays in interim stabilization and delays in
         treatment and retrieval of the tank wastes could result in the use of
         both the
                           9                           Report No. 2000-P-00012
                                   SSTs and DSTs significantly beyond the schedule established by
                                   the FFACO. Deficient DST storage capacity evaluations may
                                   cause additional delays in the retrieval and treatment of the tank
                                   waste. These delays could significantly increase the risks of
                                   releases into the environment.

                                   We attribute the conditions to three principal causes. First, DOE
                                   has not demonstrated the ability or sufficient commitment to
                                   manage the TWRS Program to meet FFACO milestones and to
                                   provide adequate protection to human health and the environment.
                                   Second, DOE has not sufficiently funded all TWRS Program
                                   activities. Third, Ecology and the Region have not developed and
                                   implemented an effective oversight and enforcement strategy.

                                   Exhibit 1 provides a timeline of actual and proposed revisions in
                                   the TWRS Program at the time of our audit.


BACKGROUND                         RCRA Subtitle C establishes a program for managing hazardous
                                   waste from generation to disposal. Section 3005 of RCRA
                                   requires facilities to obtain operating permits that establish the
                                   administrative and technical conditions under which hazardous
                                   wastes at the facilities must be managed. It also grants interim
                                   status to facilities until a permit is issued when specific qualifying
                                   criteria are met.

                                   The Hanford Facility qualified for interim status, and the SSTs
                                   and DSTs are currently operating under interim status
                                   requirements. Washington Administrative Code (WAC) Chapter
                                   173-303- Dangerous Waste Regulations and 40 CFR, Part 265-
                                   Interim Status Standards for Owners and Operators of Hazardous
                                   Waste Treatment, Storage, and Disposal Facilities provide
                                   regulations applicable to interim status tank systems used to store
                                   or treat hazardous waste. The WAC Chapter 173-303-400 and
                                   40 CFR, Part 265, Subpart J include requirements for general
                                   operations, secondary containment systems, response to leaks and
                                   disposition of unfit tank systems, and closure and post closure
                                   care.1


1
  WAC Chapter 173-303-400 and 40 CFR, Part 265, Subpart J specify that a tank system becomes subject to closure
and post closure requirements applicable to landfills in circumstances where all waste and contamination can not be
removed from in and around the tank system. 40 CFR, Part 265, Subpart N establishes closure and post closure
requirements for landfills.


                                                        10                              Report No. 2000-P-00012
                                   The purpose of the FFACO is to: (i) bring the Hanford Facility into
                                   compliance with RCRA and the State’s Hazardous Waste
                                   Management Act; and (ii) establish a framework and schedule for
                                   implementing response actions in accordance with the
                                   Comprehensive Environmental Response, Compensation, and
                                   Liability Act. Because the SSTs and DSTs are not in compliance
                                   with State and Federal hazardous waste laws and regulations, the
                                   FFACO includes requirements and milestones for: (i) tank system
                                   integrity assessments; (ii) tank system upgrades; (iii) waste
                                   characterization of tank waste; (iv) resolution of tank safety issues;
                                   (v) interim stabilization; (vi) waste retrieval; (vii) waste processing
                                   facility construction and operations; (viii) waste storage and
                                   disposal; and (ix) tank closure.

                                   The FFACO includes enforcement provisions for noncompliance
                                   with major requirements and milestones. Under the agreement,
                                   Ecology, as the lead regulator, is responsible for enforcement of
                                   FFACO milestones pertaining to regulation of the SSTs and DSTs.
                                   In the event DOE fails to comply with a term or condition of the
                                   FFACO, a stipulated penalty may be assessed in an amount up to
                                   $5,000 for the first week (or part thereof), and up to $10,000 for
                                   each additional week (or part thereof) of noncompliance. The
                                   FFACO also authorizes Ecology to seek other remedies or
                                   sanctions for noncompliance with the agreement, statutes, or
                                   regulations.

                                   The FFACO also provides a dispute resolution process in the event
                                   DOE objects to Ecology’s disapproval of a proposed modification,
                                   decision, or determination made under the agreement. The
                                   FFACO requires Ecology and DOE to make reasonable efforts to
                                   resolve disputes at the project manager level. However, the dispute
                                   may be elevated to the Interagency Management Integration Team
                                   (IAMIT)2, if resolution at the project manager level cannot be
                                   achieved within 30 days. If the IAMIT is unable to resolve the
                                   dispute within 21 days, the Director of Ecology is required to make
                                   a final determination within 35 days of the date the dispute was
                                   elevated to the IAMIT. DOE may file an appeal with either the


2
  The IAMIT is composed of a DOE Executive Manager, Ecology’s Program Manager for the Nuclear Waste
Program, and the Region’s Project Manager for the Hanford Project Office and is required by the FFACO. One of
the roles of the IAMIT is to serve as a forum for resolution of disputes when agreement can not be reached through
informal dispute resolution.


                                                        11                               Report No. 2000-P-00012
                                  Washington Pollution Control Hearing Board3 (PCHB) or the
                                  courts if DOE objects to the Director’s final determination.


INTERIM                           Milestones for interim stabilization of the SSTs have been
STABILIZATION                     significantly delayed. In the initial FFACO, interim stabilization
MILESTONES                        was to be completed by September 1995. However, as of
WERE MISSED                       August 1999, interim stabilization is not scheduled to be completed
AND DELAYED                       until September 2004.
BY 9 YEARS
                                  The intent of interim stabilization is to provide an interim measure
                                  to reduce the impacts of leaks of liquid waste from the SSTs.
                                  Interim stabilization is the process of pumping liquid mixed waste
                                  from the SSTs to DSTs. An SST is interim stabilized and pumping
                                  may be discontinued when the tank contains less than 50,000
                                  gallons of drainable liquid, less than 5,000 gallons of supernatant
                                  (free-standing) liquid, and the pump flow is 0.05 gallons per
                                  minute or less.

A Delay of 5 Years                The FFACO originally required DOE to complete interim
                                  stabilization for all SSTs by September 1995, except tanks C-105
                                  and C-106 which were to be interim stabilized by September 1996.
                                  During the period May 1989 through March 1997, milestones were
                                  modified 13 times. The most significant of these modifications
                                  was the sixth amendment, which was made in January 1994. This
                                  modification revised the major milestone for interim stabilization
                                  by extending the completion date 5 years from September 1995 to
                                  September 2000. Ecology and the Region approved the sixth
                                  amendment4 in order to allow DOE additional time to resolve tank
                                  safety issues, including those associated with flammable gas.

                                  Another significant modification to the FFACO was the twelfth
                                  amendment, which was made in September 1996. The
                                  modification extended near term interim milestones under the
3
  The PCHB was established under Washington Administrative Code to hear appeals of orders or decisions made by
state environmental departments, including the Department of Ecology.

4
  The FFACO requires the approval of both Ecology and the Region for modifications of major milestones. The
sixth amendment revised a major milestone. Therefore, both Ecology and the Region were required to approve the
amendment.


                                                      12                              Report No. 2000-P-00012
                                  major interim stabilization milestone. In addition, the amendment
                                  reduced the number of SSTs required to be interim stabilized by
                                  the near term interim milestones and increased the number of SSTs
                                  required to be interim stabilized by the later interim milestones.
                                  However, the modification did not extend the major milestone
                                  requiring completion of interim stabilization by September 2000.

                                  Ecology approved the twelfth amendment5 because DOE provided
                                  a recovery plan which included a schedule showing that interim
                                  stabilization would be completed by the September 2000
                                  milestone. In its justification for the extension, DOE disclosed that
                                  the recovery plan included a schedule which addressed safety
                                  analysis requirements and additional preparation time needed for
                                  equipment and administrative controls for tanks containing
                                  flammable gas.

                                  Subsequent to the thirteenth amendment, DOE requested two
                                  additional extensions of interim milestones. The first request was
                                  made in June 1997 and asked for an extension from
                                  September 30, 1997 to March 31, 1998 to start interim stabilization
                                  of six SSTs. The second request was made in December 1997 and
                                  asked for an extension from March 31, 1998 to a date “to be
                                  determined” to start interim stabilization of eight SSTs. DOE said
                                  unresolved flammable gas safety issues made the extensions
                                  necessary.

DOE Stopped                       Unilaterally, DOE also placed an immediate moratorium on
Pumping                           pumping of the SSTs in July 1997, and a 1-year moratorium on the
                                  tank interim stabilization program for fiscal 1998. DOE reported
                                  that the moratorium was necessary because funding was expected
                                  to be less than required to comply with all regulations and
                                  compliance commitments. DOE also said that it wanted the
                                  moratorium because the cost of interim stabilization per tank had
                                  been escalating and, as a result, it wanted to stop and refine an
                                  approach to reduce the cost prior to restarting the program.
                                  Consequently, DOE cut funding for interim stabilization from
                                  approximately $15 to $4 million for fiscal 1998.

Milestones not Met                Ecology denied both extension requests. In response, DOE
                                  invoked the FFACO dispute resolution process and appealed to the
                                  Director of Ecology. The Director denied both extensions citing
5
 The FFACO requires the approval of the lead regulatory agency for modifications of interim milestones. Ecology
approved the twelfth amendment because it is the lead agency for regulation of the SSTs and DSTs.


                                                       13                             Report No. 2000-P-00012
                      that DOE did not have sufficient cause for the extensions.
                      Although the extensions were denied, DOE subsequently failed to
                      meet the milestones. No penalties were assessed by Ecology in
                      response to DOE’s failure to meet the September 1997 and March
                      1998 milestones.

                      DOE submitted another recovery plan for the interim stabilization
                      program during April 1998 as a result of the Director of Ecology’s
                      decisions to deny the previous two extension requests. The
                      recovery plan stated that DOE was unable to meet completion of
                      interim stabilization by September 2000 and requested that the
                      milestone be extended 4 years to September 2004. The recovery
                      plan further stated that DOE could only meet the revised schedule
                      if 29 “enabling assumptions” proved true.

Intent to File Suit   In response to DOE’s April 1998 plan, Ecology notified DOE
                      during June 1998 that it intended to file suit for DOE’s failure to
                      meet the September 1997 and March 1998 interim milestones.
                      Ecology advised DOE:

                             The history of the interim stabilization program at
                             Hanford is one of delay, mismanagement, and above
                             all failure to stop an ongoing threat to groundwater
                             and the Columbia River. For years, the State has
                             accommodated Energy’s requests for more time to
                             complete work. Despite thirteen amendments, many
                             of them premised on the need to address safety issues,
                             Energy has failed to take steps necessary to work
                             safely in a flammable gas environment. In 1997, less
                             than a year after the last significant extensions were
                             made to interim stabilization milestones, Energy
                             abruptly stopped pumping waste from tanks at
                             Hanford. Apparently, Energy has decided that the
                             way to work is do no work at all.

Consent Decree        Subsequent to Ecology’s notice of intent to sue; DOE, Ecology, the
Established to        U.S. Department of Justice, and the Washington Attorney
Enforce Revised       General’s Office entered into settlement negotiations which
Schedule              resulted in a consent decree for the Interim Stabilization Program.
                      The consent decree in August 1999 removed the Interim
                      Stabilization Program from the FFACO, and replaced it with a new
                      agreement and schedule which is enforceable by Ecology through
                      the U.S. District Court for the Eastern District of Washington. The
                      consent decree also revised the date for completion of interim

                                        14                          Report No. 2000-P-00012
stabilization an additional 4 years to September 2004. This
extension, combined with previously agreed upon amendments,
results in a 9-year delay in interim stabilization from the original
September 1995 milestone.

In response to the settlement negotiations, DOE began pumping the
first group of SSTs scheduled for interim stabilization under the
consent decree between March and June 1999. As of the end of
September 1999, pumping was progressing ahead of the latest
schedule. In its response to our position papers, Ecology stated:

       Ecology would like EPA to note and be cognizant of
       the tremendous amount of Ecology technical staff time
       that went into the development of detail process
       definition systems analysis, and schedule scrubbing
       that is the basis of the new consent decree. Ecology
       technical staff worked along side, DOE, and
       contractor staff in this complete redefinition of the
       processes needed to interim stabilize a tank. It is this
       level of detail that gives Ecology confidence that the
       schedules are technically doable and more importantly
       that perhaps this time DOE has developed a well
       defined systems approach to interim stabilization that
       can be successful.

We acknowledge Ecology’s efforts and accomplishment in
establishing the new interim stabilization schedule under the
consent decree and its confidence that the schedule is technically
doable. However, safety issues and insufficient funding could
cause further delays in interim stabilization. This is because the
decree provides that unforseen safety concerns may constitute good
cause for extending the interim stabilization schedule. If DOE is
unable to resolve safety issues timely, safety issues may continue
to cause delays in stabilizing the SSTs.

The consent decree also provides that DOE may raise
unavailability of funds as a defense for failure to comply with the
terms of the decree. Therefore, DOE’s budget process could also
cause delays. As specified in the decree, Ecology does not agree
that lack of funding is a valid defense for further delays. However,
Ecology decided not to seek judicial resolution of the issue until
such time as DOE claims it is unable to perform because of
insufficient funds.


                  15                           Report No. 2000-P-00012
START AND                          Waste treatment is a critical step in the process of getting
COMPLETION OF                      hazardous waste out of leaking tanks. Yet, DOE will delay the
WASTE                              start of waste treatment by at least 4 years6 and may delay the
TREATMENT WAS                      completion of waste treatment up to 19 years. Furthermore,
DELAYED                            Ecology has not been successful in establishing revised,
                                   enforceable waste treatment milestones timely with DOE.

                                   The purpose of waste treatment is to convert SST and DST wastes
                                   into a solid form for storage and disposal. DOE plans to first
                                   separate the wastes into low activity waste7 (LAW) and high level
                                   waste8 (HLW). The LAW and HLW will then be stabilized within
                                   a molten glass matrix, referred to as vitrification, that will be
                                   poured into stainless steel containers to harden. The vitrified HLW
                                   will be stored at Hanford until a national HLW repository is
                                   constructed. The vitrified LAW will be disposed at Hanford in
                                   near surface disposal facilities specially designed to meet
                                   requirements of the Nuclear Regulatory Commission, the State’s
                                   Hazardous Waste Management Act, and RCRA.

The Start of Waste                 The start of waste treatment will exceed the current FFACO
Treatment Will be                  milestones for waste treatment by at least 4 years. The FFACO
Delayed at Least 4                 requires DOE to acquire tank waste treatment capacity on an
Years                              agreed-to primary path or, should DOE determine the primary path
                                   to be infeasible, an agreed-to alternative path. Under the primary
                                   path, FFACO milestone M-60-12 requires that two contractor-
                                   owned and operated Phase I LAW treatment facilities be
                                   operational by December 2002. If infeasible, however, then the
                                   alternative path’s milestone M-61-02 requires that one Phase I
                                   LAW facility be operational by December 2003.

                                   Under the primary path, DOE planned to purchase tank waste
                                   processing services at fixed-unit prices from contractor-owned and
6
  The 4 year delay is based on the current FFACO alternative path milestone requiring waste treatment to start in
December 2003 and DOE’s current plan to start waste treatment in December 2007. The original FFACO milestone
for the start of waste treatment was December 1999. Therefore, the start of waste treatment will be delayed 8 years
from the original milestone if waste treatment begins in 2007.
7
 LAW is high level waste that has been pre-treated to remove a portion of radioactive elements and when stabilized
qualifies as incidental waste according to the Nuclear Regulatory Commission (NRC). The NRC allows disposal of
LAW in storage appropriately constructed near surface facilities.
8
  HLW is a by-product of reprocessing spent nuclear fuel and is considered the most dangerous form of radioactive
waste. HLW requires radiation shielding, special handling techniques, and when disposed of, special measures to
isolate it from humans and the environment.

                                                        16                               Report No. 2000-P-00012
contractor-operated facilities at Hanford. Using this privatization
approach, DOE sought to achieve greater accountability and risk
sharing with the contractors than under traditional DOE cost-
reimbursement contracts.

DOE initially planned to comply with the primary path’s
milestones through contracting for waste treatment services in two
phases: Phase I and Phase II. Phase I was designed to treat and
immobilize between 6 and 13 percent of Hanford’s tank waste and
serve as a demonstration of the elements that would be required for
continuing the privatization approach with production-scale
facilities during Phase II. During Phase II, DOE envisioned that
the remaining tank waste would be processed.

The alternative path was intended as a fall back contracting and
funding path. The path’s milestones were to become enforceable
only in the event that DOE was not maintaining adequate progress
under the primary path and elected to pursue the alternative path.
Therefore, the alternative path milestone was established to
provide additional time to enable DOE to make necessary
contracting and funding changes should the primary path become
unfeasible.

Following the primary path, DOE awarded Phase I contracts to two
contractors during September 1996. The contracts were structured
in two parts, a 20-month Part A ending in mid-1998, and an
optional Part B planned to last approximately 10 to 14 years. The
purpose of the Part A was to evaluate the technical, operational,
and immobilization services on a fixed-unit-price basis. If
authorized to proceed to Part B, the contractors would then design,
build, permit, operate, and deactivate privately financed, LAW and,
optionally, HLW treatment plants.

Although the FFACO established milestones for DOE to start
LAW waste treatment by either the end of 2002 or 2003, DOE
awarded a contract modification in August 1998 which does not
comply with either waste treatment milestone. Following
completion of Part A by the two contractors, DOE only authorized
one contractor to proceed to Part B. In the Part B contract, DOE
did not authorize the contractor to proceed with construction and
operation of the facilities as originally planned. Instead, the
contract only authorized a 24-month design period, ending August
2000 (with the possibility of a 9 month extension), to refine the

                 17                           Report No. 2000-P-00012
                                     design, technical approach, regulatory requirements, and financial
                                     and incentive structure of LAW and HLW waste treatment for
                                     Phase I.9

                                     DOE plans to make a decision on whether to proceed with the
                                     contractor into construction and operation of Phase I in late August
                                     2000 when the design phase will be at 30 percent and the
                                     contractor can propose fixed-unit prices for waste processing
                                     services. DOE estimates that if the contractor is granted an
                                     authorization to proceed with construction and operation of the
                                     facilities under Phase I, waste treatment will begin by
                                     December 2007 and continue through December 2018, a period of
                                     11 years.

                                     Assuming the contractor is authorized to proceed with
                                     construction, the August 1998 contract modification will result in a
                                     delay of Phase I waste treatment facilities being operational from
                                     December 2002 under the primary path (or December 2003 under
                                     the alternative path) to December 2007, a delay of at least 4 years.
                                     Further, the contract does not establish a commitment by DOE to
                                     construct and operate tank waste treatment facilities and DOE has
                                     not established an alternative plan for acquisition and operation of
                                     waste treatment facilities should the contractor not be authorized to
                                     proceed with the remainder of Phase I.

Completion of                      DOE may significantly delay the completion of waste treatment.
Waste Treatment                    Primary path milestone M-60-00 requires completion of
may be Delayed                     pretreatment and immobilization of LAW by December 2024 and
up to 19 Years                     alternative path milestone M-61-00 requires completion of
                                   pretreatment and immobilization of LAW by 2028. In addition,
                                   milestone M-51-00 requires completion of vitrification of HLW by
                                   December 2028.

                                   DOE plans to build sufficient waste treatment capacity during
                                   Phase I to treat approximately 10 percent of the tank waste by
                                   volume by the end of 2018. Therefore, approximately 90 percent of
                                   the tank waste will be processed during Phase II of waste treatment
                                   which is scheduled to begin in 2010. Waste treatment analysis
9
  A major reason for DOE’s change in contract scope for Part B was that both Part A contractors identified that
DOE’s waste treatment plan to build proof of concept facilities with a design life of 10 years was not feasible.
Based on the need for a conservative, seismic-resistant design, and input from the financial communities, both
contractors proposed more robust, capital-intensive facilities with a design life of 30 years or more. As a result,
DOE determined that more time was needed to construct the facilities than originally planned and currently
reflected in FFACO milestones.

                                                          18                                Report No. 2000-P-00012
presented by DOE to Ecology during March 1999 identifies that
DOE will be required to significantly expand its treatment capacity
during Phase II in order to complete waste treatment by the
milestone of 2028.

However, DOE’s waste treatment analysis indicates that the option
it is considering for waste treatment capacity during Phase II may
result in a delay of waste treatment completion for both LAW and
HLW from 2028 to as late as 2047, or a delay of up to 19 years.
DOE’s analysis identifies 5 possible treatment capacity expansion
options with waste treatment completion ranging from 2028 to
2047.

                 Waste Treatment Capacity Options
                Phase I     Phase II      Total         Treatment
Option          Capacity    Expansion     Capacity      Completed

Single Line     10 MT*      50 MT*        60 MT*        2047

Minimum         30 MT       30 MT         60 MT         2047
Deliverable

Contract        30 MT       30 or 90 MT   60 or 120     2032 or
Reference                                 MT            2047

Double          60 MT       60 MT         120 MT        2032
Capacity

Maximum         120 MT      N/A           120 MT        2028
Capacity

*Metric tons per day


The waste treatment analysis identifies that DOE’s preferred option
for expanding treatment capacity is the Contract Reference Option.
Under this option, waste treatment will not be completed until
about 2047 if DOE decides to contract for waste treatment facilities
with a total capacity of 30 metric tons per day during Phase I and
60 metric tons per day during Phase II.




                       19                     Report No. 2000-P-00012
                      In its response to our position papers, Ecology stated:

                             DOE has repeatedly said that it can and will meet
                             2028 and there has been no agreement to delay the
                             end of treatment of tank waste by Ecology. Actual
                             Phase I treatment performance efficiencies coupled
                             with Phase II facility expansion may allow DOE to
                             meet the 2028 treatment completion requirement.

                      We agree that DOE should be able to meet the 2028 milestone if it
                      obtains sufficient waste treatment capacity. However, DOE’s
                      waste treatment capacity analysis suggests that adequate capacity
                      may not be acquired to treat all of the tank waste by 2028.
                      Furthermore, the delay of the start of waste treatment by at least 4
                      years may make it more difficult for DOE to meet the FFACO
                      milestone.

Revised FFACO        Although DOE has made it clear that it would not meet waste
Milestones Have      treatment milestones in the FFACO, Ecology has not been
Not Been             successful in establishing revised enforceable waste treatment
Established Timely   milestones timely.

                     Recognizing the impact of the August 1998 contract modification
                     on waste treatment milestones, in October 1998, Ecology requested
                     that DOE enter into “Agreement in Principle, Hanford Federal
                     Facility Agreement And Consent Order Tank Waste Remediation
                     System (TWRS) Negotiations In conformance with TWRS
                     Privatization Contract Number DE-RP06-96RL13308 August 1998"
                     (AIP) to establish a negotiation framework for revision of FFACO
                     milestones. In a draft AIP provided to DOE, Ecology stated:

                            Signature of the contract will result in major impacts to
                            Hanford Federal Facility Agreement and Consent Order
                            (Agreement) requirements for tank waste processing
                            facility design, construction, and operation, and will
                            similarly impact many other aspects of the TWRS
                            program. Approval to date of only Part B-1 has
                            increased concern regarding further delay in processing
                            plant acquisition. Prior to issuance of contract Part
                            B-1, Agreement requirements represent the sole legal
                            driver for compliance and cleanup of the tank farms.

                     Ecology requested that the AIP be finalized by early November
                     1998. Although meetings between senior executives from Ecology,

                                        20                          Report No. 2000-P-00012
                                 the Region, and DOE were held during February and April 1999 to
                                 resolve DOE’s concerns with committing to an AIP, Ecology was
                                 unable to obtain a signed AIP from DOE until late May 1999.
                                 Therefore, the AIP was signed by DOE over 6 months late.

                                 The AIP required the parties to revise specific milestones for
                                 Phase I waste treatment and establish milestones which provide a
                                 schedule to negotiate revised milestones for waste retrieval and
                                 Phase II waste treatment. The AIP also stated: “The Parties’
                                 negotiations must result in clear DOE accountability to move
                                 forward with pretreatment and vitrification of Hanford tank waste”
                                 and set a July 31, 1999 deadline for completion of the negotiations.

                                 However, the July 1999 deadline specified by the AIP was not met.
                                 Ecology, the Region, and DOE signed “Agreement on Principal
                                 Regulatory Commitments Pertaining to Hanford Tank Waste
                                 Treatment Complex Construction and Operations” on
                                 November 15, 1999, or 3½ months after the deadline. Under this
                                 new agreement, DOE has committed to start operations for tank
                                 waste treatment by 2007 and to complete treatment of 10 percent of
                                 the tank waste by volume by 201810. In addition, the three parties
                                 have agreed to establish milestones and target dates which provide a
                                 specific schedule for the parties to revisit and negotiate FFACO
                                 milestone modifications pertaining to Phase II waste treatment.
                                 Under the agreement, these commitments will be incorporated into
                                 the FFACO through an amendment.

                                 The November 1999 agreement requires the 3 parties to complete
                                 negotiations on conversion of the regulatory commitments to
                                 FFACO change request format by the end of January 2000.
                                 Therefore, revised waste treatment milestones which are enforceable
                                 will not be established until after January 2000. If the negotiations
                                 are successfully competed by the deadline, it will have taken
                                 Ecology approximately 17 months (from the August 1998 contract
                                 modification) to reach agreement on revised FFACO milestones for
                                 Phase I waste treatment and a negotiation schedule for milestone
                                 modifications pertaining to Phase II.




10
   Ecology, the Region, and DOE have agreed that DOE will not seek an alternative path to meet the commitment
dates.


                                                      21                              Report No. 2000-P-00012
MILESTONE FOR                     DOE did not meet FFACO milestone M-45-03A to initiate waste
INITIATION OF                     retrieval from SST C-106 timely, and waste retrieval was
WASTE                             subsequently delayed for over a year.
RETRIEVAL FOR
SST C-106 WAS                     SST C-106 is a 530,000 gallon tank built between 1943 and 1944.
NOT MET                           It is 55 years old, 2¾ times its design life of 20 years. In addition
                                  to normal deterioration, heat-generating radioisotopes threaten the
                                  tank’s integrity. At one time, the tank stored 229,000 gallons of
                                  high-level radioactive waste, including 5 million curies of
                                  strontium-90. Decay of the strontium-90 generates high heat
                                  within the waste. Waste temperatures in the tank were observed in
                                  excess of 210 degrees (F). The excessive heat could have resulted
                                  in collapse of the tank dome and loss of containment of the tank’s
                                  contents. The tank required 6,000 gallons of water a month to be
                                  added for cooling.

                                  In 1990 Congress passed Public Law 101-510 which required DOE
                                  to identify Hanford tanks that “may have a serious potential for
                                  release of high level waste due to uncontrolled increases in
                                  temperature or pressure,” and to develop action plans to respond to
                                  this risk. In response to the law, DOE placed tanks with high heat
                                  and high pressure conditions on a “Watch List.” Tank C-106 was
                                  placed on the Watch List during 1991 as Hanford’s only high heat
                                  tank. DOE considered the high-heat waste in Tank C-106 a
                                  priority 1 safety issue because:

                                  (i)      If the tank leaked and water cooling was stopped, an
                                           uncontrolled release of radioactive material could occur due
                                           to failure of the tank’s dome, leading to on-site or off-site
                                           radiation exposure and a potential loss of human lives, and

                                  (ii)     If the tank leaked and water cooling was not stopped,
                                           maintaining cooling water levels would result in continual
                                           water contaminant loss to area soils and eventually the
                                           groundwater.

                                  Completion of FFACO milestone M-45-03A represents a critical
                                  first step in determining how waste will be retrieved from the other
                                  SSTs as well as closure of the tanks. It required DOE to initiate
                                  retrieval of C-106 waste by October 31, 199711. The milestone was
11
  The FFACO did not specify a completion date for the retrieval operations required under interim milestone M-45-
03A.


                                                       22                              Report No. 2000-P-00012
created in order to: (i) resolve the high heat safety issues associated
with the tank, and (ii) demonstrate SST retrieval technologies.

On May 6, 1997 DOE requested the due date for milestone
M-45-03A be extended to September 1998. The extension was
requested because DOE discovered an over-estimate in the
ventilation capacity of the waste receiver tank. The over-estimate
affected assumptions regarding the ability of the receiver tank to
cool the waste, creating a “steam bump” safety issue for the
receiver tank. A steam bump occurs when liquid comes in contact
with superheated sludge and is converted to steam. The steam may
result in over-pressurization of the tank and a release of
contaminants to the air outside. DOE concluded it would not be
possible to resolve the steam bump issue in time to meet the
milestone.

Ecology disapproved DOE’s request to extend the milestone. In
response, DOE invoked the dispute resolution process outlined by
the FFACO and appealed the decision to the Director of Ecology.
The Director denied the appeal, stating DOE had been deficient in
developing a sound safety analysis and in identifying and resolving
safety issues within a reasonable time. The Director informed
DOE that they would be in violation of the milestone on
November 1, 1997, and that penalties may be assessed in
accordance with the FFACO. However, the Director stated that
penalties would not be assessed provided retrieval of waste was
completed by December 31, 1999.

In November 1997, DOE appealed Ecology’s decision to the
Pollution Control Hearing Board (PCHB). The PCHB affirmed
Ecology’s determination in September 1998 denying extension of
the milestone. Even though the appeal was denied and no
extension was granted, DOE achieved in effect a 1-year delay by
pursuing the appeal process. DOE initiated waste retrieval from
C-106 in November 1998 instead of October 1997 as required by
the milestone.

DOE subsequently completed waste retrieval from the tank earlier
than the December 31, 1999 deadline established by Ecology’s
Director. The waste retrieval was successfully completed in
October 1999.




                  23                           Report No. 2000-P-00012
SST WASTE                          DOE’s current TWRS Operation and Utilization Plan12 (OUP),
RETRIEVAL AND                      dated May 1999, identifies that DOE may not meet the FFACO
CLOSURE MAY BE                     tank waste retrieval and closure milestones. In addition, funding
DELAYED                            reductions in retrieval technology development will most likely
                                   cause additional delays in retrieval and closure activities.

                                   Milestone M-45-05 requires DOE to retrieve the waste from all
                                   149 SSTs by the end of September 2018 and milestone M-45-00
                                   requires the closure of all SSTs by the end of September 2024.
                                   Closure is to follow retrieval of as much tank waste as technically
                                   possible, with tank waste residues not to exceed the lesser of, the
                                   limit of waste retrieval technology capability or, 360 cubic feet in
                                   each of the 100 series tanks and 30 cubic feet in each of the 200
                                   series tanks.

                                   Target milestones M-45-03-T01 and M-45-04-T01 represent
                                   critical initial steps towards retrieving waste and closing the SSTs.
                                   Target milestone M-45-03-T01 requires completion of a SST
                                   retrieval demonstration for one tank by September 2003. Target
                                   milestone M-45-04-T01 requires the completion of construction
                                   and related testing of the initial SST retrieval systems for an entire
                                   tank farm, or an equivalent number of tanks, by November 2003.

Retrieval and                      DOE’s TWRS OUP identifies that DOE may not complete
Closure Delays                     retrieval operations until the end of September 2033, a delay of 15
May be 15 and 9                    years from the September 2018 due date specified by the FFACO.
Years,
Respectively
                                   According to the TWRS OUP, DOE’s waste treatment contracting
                                   changes significantly impacted its waste retrieval plans. The
                                   TWRS OUP states:

                                            Privatization contract changes also had a great
                                            impact on SST retrieval plans.…There will not be
                                            space available to retrieve any tanks beyond the
                                            241-C-106 demonstration until processing has
                                            started and has freed up space to allow further
                                            retrieval. In addition, the delays do not allow any of
                                            the SST retrieval interim target milestones to be

12
  The TWRS Operation and Utilization Plan provides an integrated and updated planning baseline for DOE’s
TWRS Program to use for revision of multi-year work plans, mission analysis reports, system specifications, and
project plans in order to meet contract commitments for privatized waste treatment facilities.

                                                        24                              Report No. 2000-P-00012
                        met. The Tri-Party Agreement compliant Case 0
                        (achieve the SST Retrieval completion milestone of
                        September 30, 2018) is not technically practical.
                        Retrieval and processing rates are impractically
                        high, the Phase 2 schedule has the same completion
                        date as Phase I, and Tank space is not available.

                 The TWRS OUP identifies that approximately 100 million gallons
                 of waste will be transferred from the SSTs during retrieval
                 operations. However, the plan discloses that, under DOE’s
                 preferred schedule, only about 22 million gallons (or 22 percent)
                 will be retrieved from the SSTs by the original milestone
                 completion date of September 2018. DOE’s preferred schedule for
                 completion of retrieval may also result in the delay of the closure
                 of the SSTs until after September 2033, a delay of at least 9 years
                 from the September 2024 due date specified by the FFACO. If so,
                 waste retrieval would not be completed until about 90 years after
                 the first SSTs were built.

                 During the audit, Ecology was in the process of addressing DOE’s
                 plans to delay tank waste retrieval and closure through the
                 negotiations outlined in the “Agreement on Principal Regulatory
                 Commitments Pertaining to Hanford Tank Waste Treatment
                 Complex Construction and Operations”, dated November 15, 1999.
                 Under the agreement, Ecology, the Region, and DOE will negotiate
                 milestones and target dates which establish a specific schedule for
                 further negotiation of FFACO milestone modifications pertaining
                 to waste retrieval and tank closure. The agreement requires that
                 the negotiations be completed no later than the end of January
                 2000.

Retrieval        DOE has not adequately funded retrieval technology development.
Technology not   In April 1999 DOE suspended funding of the Hanford Tank
Adequately       Initiative (HTI) Project. DOE originally established the HTI
Funded           Project to develop technologies for waste retrieval and to
                 determine the amount of waste retrieval that is technically
                 achievable. In a April 29, 1999 letter addressed to DOE’s Manager
                 of the Office of River Protection, Ecology notified DOE that the
                 funding suspension was a short-sighted action and that the
                 suspension will have negative impacts on future SST retrieval and
                 closure activities. The suspension of funding will most likely
                 result in DOE’s inability to meet the FFACO’s target milestones
                 and may cause additional delays in retrieval of waste from the


                                  25                          Report No. 2000-P-00012
               SSTs beyond the 15-year delay identified by DOE’s preferred
               schedule.


ANNUAL DST     DOE’s DST Operational Waste Volume Report for 1998 was
OPERATIONAL    deficient and did not meet FFACO milestone requirements. The
WASTE VOLUME   FFACO (milestone M-46-00E) requires DOE to submit an annual
REPORT WAS     DST volume projection report identifying additional DST space
DEFICIENT      requirements for tank waste remediation activities. The evaluation
               is essential to ensure that DOE has sufficient DST storage capacity
               to accommodate waste transferred from the SSTs during interim
               stabilization and retrieval operations until the waste is treated. The
               milestone also requires DOE to submit plans for acquisition of
               additional tanks if the projection identifies that additional space is
               needed. The report was due by September 1998.

               Although DOE submitted the annual DST Operational Waste
               Volume Report on time, Ecology determined that the evaluation
               had serious shortcomings in the assumptions used for the
               projections. Ecology concluded that none of the scenarios used in
               the evaluation accurately reflected the actual site planning or
               requirements of the FFACO. In a deficiency letter addressed to
               DOE’s Administrator for the Hanford FFACO, dated
               November 30, 1998, Ecology stated:

                      A new analysis needs to be conducted and should
                      reflect site planning, consent order requirements,
                      retrieval of C-106 in late 1998/early 1999 and
                      subsequent SST waste retrieval in compliance with
                      the M-45 milestones, interim stabilization liquids of
                      up to 7 million gallons complete in 2004, and
                      treatment capacity available in 2006.

                      Current projections show that available tank space is
                      exceeded in 2004 to 2006 time frame. With no firm
                      commitment to date from USDOE to obtain waste
                      treatment capacity, even these projections may
                      underestimate the need for new tank space. Given
                      the 6-8 years required for new double shell tank
                      capacity to become available, a decision must be
                      made almost immediately to build new tank space in
                      order for the Hanford site to fulfill its mission of
                      waste retrieval and treatment.


                                 26                           Report No. 2000-P-00012
                                     The letter suggested that DOE recalculate the projection using the
                                     latest information from the various elements of the program and
                                     resubmit the projection by the end of January 1999. Ecology
                                     subsequently agreed to give DOE until April 1999 to resubmit the
                                     projection. However, DOE did not resubmit the projection to
                                     Ecology until late July 1999, or about 10 months after the
                                     projection was originally due. Therefore, Ecology was unable to
                                     timely determine whether DOE has an adequate plan for ensuring
                                     sufficient DST capacity is available to store waste transferred from
                                     the SSTs.

                                     Because the revised projection was not submitted to Ecology until
                                     late July 1999, we did not evaluate it. However, Ecology informed
                                     us in late September 1999 that it had completed its review of the
                                     revised projection and determined that the projection was
                                     acceptable.


DELAYS                               There are about 35 million gallons of high level radioactive waste
INCREASE RISKS                       remaining in the SSTs and about 19 million gallons of waste stored
TO THE                               in the DSTs. Continued delays in interim stabilization and planned
ENVIRONMENT                          delays in treatment and retrieval of the tank wastes will result in
                                     the use of both the SSTs and DSTs significantly beyond the
                                     scheduled date of 2028 for completion of waste treatment
                                     established by the FFACO. These delays may significantly
                                     increase the risks of releases into the environment. DOE’s 1998
                                     Report to Congress, Treatment and Immobilization of Hanford
                                     Radioactive Tank Waste, stated:

                                              The waste poses a serious safety concern to the
                                              public and to the environment. Since most of the
                                              single-shell tanks have exceeded their design life,
                                              that risk is growing. Sixty-seven of the single shell
                                              tanks are known to have leaked, and several
                                              additional tanks are being investigated for potential
                                              leaks. Nearly a million gallons of the tank waste has
                                              spilled into the soil of the vadose zone13 below the
                                              tanks since the first leak occurred. Recent
                                              information has indicated that tank waste
                                              radionuclides have moved through the vadose zone
                                              and now have reached the groundwater that flows
13
     The vadose zone is the soil zone below the surface above the saturated groundwater area.



                                                          27                               Report No. 2000-P-00012
       under the Hanford Site and connects with the
       Columbia River. However, it is not possible to
       predict when the next tank will leak, and with the
       passage of time, even the newer, safer, double-shell
       tanks are approaching the end of their design lives.
       Removal of waste from the tanks, treatment, and
       immobilization as an inert waste form will constitute
       a lasting solution to the problem.

The SSTs were built in the 1940's through the 1960's and had a
design life of approximately 20 years. At least 1 million gallons of
highly toxic and radioactive waste has already leaked from 67 of
the 149 SSTs. Some of the waste has reached the groundwater,
and DOE currently has no method of removing all of the hazardous
contaminates from the groundwater before it reaches the Columbia
River. DOE reported that the potential for accident resulting in
large releases of radioactive and chemical contaminants will
increase as the tanks age. Releases of tank waste to soil and
groundwater will be more difficult and expensive, if not
impossible, to remediate. Therefore, the extended use of the SSTs
may require subsurface barriers to prevent migration of
contamination through the vadose zone to the groundwater. In
addition, extensive use of surface barriers both in the near term, as
interim corrective measures, and in the long term, as closure
methods, may be required to prevent further contamination of the
groundwater.

The DSTs will be near or will exceed their 50 year design lives by
2028, the current milestone for completion of waste treatment.
DOE’s preferred schedule for waste treatment is to extend
completion of treatment to approximately 2047. By 2047, the
average age of the DSTs will be 67 years. Extending the waste
treatment schedule will require the use of the DSTs significantly
beyond their design lives unless sufficient additional DST capacity
is built. The use of the tanks beyond their design lives will
increase the risk of releases into the environment from tank
structural failures.

The 1 year delay in retrieval of waste from Tank C-106 increased
the risk of an uncontrolled release of radioactive wastes into the
environment from a catastrophic failure of the tank. In addition, an
extension of the retrieval of waste from the SSTs from 2018 to
2033 will require the continued storage of waste in the failing
SSTs. By 2033, some of the SSTs will have exceeded their design

                  28                          Report No. 2000-P-00012
               lives by about 70 years. Insufficient funding of the HTI program
               may cause even further delays in retrieval of the wastes from the
               SSTs.

               Deficient DST space evaluations may cause additional delays in
               the retrieval and treatment of the tank waste. DOE estimates that it
               will take 6 to 8 years to build new DSTs. Based on DOE’s DST
               Operational Waste Volume Projection Report for 1998, DOE will
               need 1 additional DST for fiscal 2001 and up to 6 additional DSTs
               by 2012 in order to meet current waste retrieval and treatment
               milestones. As of September 1999, DOE did not have any
               contracts for construction of additional DSTs.


REASONS FOR    We attribute the conditions to three principal causes. First, DOE
LACK OF        has demonstrated neither an ability nor sufficient commitment to
PROGRAM        manage the TWRS Program to meet FFACO milestones and to
PROGRESS AND   provide adequate protection to human health and the environment.
COMPLIANCE     Second, DOE has not sufficiently funded all TWRS Program
               activities. Third, Ecology and the Region have not developed and
               implemented an effective oversight and enforcement strategy.

DOE Has Not    Recent reports by DOE and GAO on TWRS Program operations
Managed the    identified significant weaknesses in management of the Program.
TWRS Program   Specifically:
Effectively
               (i)    DOE report entitled Review of the Federal Management of
                      the Tank Waste Remediation System Project (January
                      1998). The report was based on the evaluation results of
                      an independent nine-person review team of DOE
                      employees and contractors chartered by the Secretary of
                      DOE to investigate confidential allegations regarding
                      management of the TWRS Program. The report included
                      the following findings:

                      •Current TWRS management processes for addressing
                      safety and technical issues lack sufficient rigor to
                      consistently detect, manage, and resolve problems before
                      they become major issues for the program. This lack of
                      rigor is evident throughout several aspects of TWRS
                      management processes.




                                29                          Report No. 2000-P-00012
        •Processes for reviewing and resolving technical and safety
        comments are weak and have failed to address significant
        issues in several cases.

        •Management problems in previous self-assessments
        persist.

(ii)    A March 1996 DOE report entitled DOE-RL TWRS
        Organizational Effectiveness Study Report (March 1996).
        The report was based on evaluation results of a review
        team of senior DOE staff with Government and private
        industry experience who were external to the TWRS
        Program. It included the following findings:

        •Organizational structure and responsibilities have
        not been consistently defined in a clear and timely
        manner to the DOE-TWRS staff.

        •Project managers are not all fully trained,
        knowledgeable or skilled in project management
        practices.

        •Decision making, problem resolution, action plan
        development, and implementation are not timely or
        of required quality.

        •DOE-TWRS administrative procedures required to
        support efficient “Conduct of Operations” are not
        existent, not effectively utilized, or require further
        development.

        •Effectiveness of the DOE-TWRS organization is
        adversely impacted by some poor management and
        administrative practices.

(iii)   GAO’s report entitled Nuclear Waste: Department of
        Energy’s Hanford Tank Waste Project-Schedule, Cost, and
        Management Issues (GAO/RCED-99-13, October 1998).
        GAO pointed out that DOE has had a history of not fully
        implementing its management and oversight plans at its
        facilities. GAO also said that outstanding issues
        concerning technical staff, site support activities, and
        project administration may keep DOE from being fully
        prepared to oversee the Hanford Tank Waste Project.

                  30                           Report No. 2000-P-00012
               (iv)   GAO’s report entitled Nuclear Waste: Understanding of
                      Waste Migration at Hanford is Inadequate for Key
                      Decisions (GAO/RCED-98-80, March 1998). GAO
                      concluded that DOE has no strategy for investigating the
                      contaminated soil beneath the tanks soil and above the
                      groundwater. GAO found that DOE: (i) assigned low
                      funding priority to most proposed studies of the
                      contaminated soil, (ii) responded slowly to experts’
                      recommendations for improving ongoing studies, (iii) did
                      not integrate the information needs of the three
                      organizational units responsible for cleanup activities, and
                      (iv) does not know what information is needed for key
                      cleanup decisions.

Insufficient   DOE has not placed sufficient emphasis on meeting key
Emphasis on    milestones pertaining to interim stabilization, waste treatment,
Meeting        waste retrieval, DST space requirements, and closure of the SSTs.
Milestones
               DOE’s recent actions and current planning involving acquisition
               and operation of tank waste treatment facilities provide an
               example of DOE’s lack of commitment to meeting important
               FFACO milestones. DOE made a unilateral decision to delay
               waste treatment even though it had committed to specific
               milestones under the FFACO. In addition to DOE’s decision to
               not comply with current milestones, the Department was unwilling
               to commit to revised milestones for construction and operations of
               waste treatment facilities until mid November 1999. This
               commitment by DOE, “Agreement on Principal Regulatory
               Commitments Pertaining to Hanford Tank Waste Treatment
               Complex Construction and Operations”, will not result in
               enforceable milestones until after negotiations on revised FFACO
               milestones are successfully completed in January 2000.

               Prior to November 1999, DOE was unwilling to commit to revised
               waste treatment milestones because it was concerned that
               agreeing to milestones for start of waste treatment construction
               and operations would put it in a disadvantage when negotiating
               contract clauses for construction and operation of waste treatment
               facilities. In addition, DOE took the position that its schedules for
               construction of waste treatment facilities and their operations were
               only estimates and may change. As a result of DOE’s position on
               waste treatment commitments, it took Ecology over 6 months to



                                 31                          Report No. 2000-P-00012
                                   finalize the AIP and 1314 months to sign the “Agreement on
                                   Principal Regulatory Commitments Pertaining to Hanford Tank
                                   Waste Treatment Complex Construction and Operations.”

TWRS Program                       DOE has not sufficiently funded all TWRS Program activities. For
Has Not Been                       example, DOE did not adequately fund the interim stabilization
Sufficiently                       operations during fiscal 1998 and it suspended funding for HTI.
Funded                             According to Ecology, DOE’s inability to obtain a commitment by
                                   Congress to adequately fund the TWRS Program has contributed to
                                   delays in the Program. In its response to our position papers,
                                   Ecology stated:

                                            An additional “cause”... is the issue of capital cost and
                                            the historical lack of DOE ability to obtain
                                            commitment from Congress to fund this costly
                                            solution for the nation’s largest environmental cleanup
                                            effort. Today much of this decision will be based on
                                            the financial and pricing package BNFL puts forward,
                                            the contractual scoring agreements needed from the
                                            Congressional Budget Office and finally funding
                                            commitments from Congress. The issue of tank waste
                                            treatment has historically always been and will always
                                            be controlled by funding commitment for this large
                                            capital project. All of this will either succeed or fail in
                                            the year 2000. If it fails, there will be 5 to 10 years
                                            delay in contracting and funding a
                                            new arrangement for waste treatment.

Ecology and                        Ecology and the Region have not developed and implemented an
Regional                           effective oversight and enforcement strategy. Ecology as the lead
Oversight and                      regulatory agency, developed an oversight and enforcement strategy
Enforcement Have                   for the TWRS Program with primary elements of negotiation and
Not Been                           partnering with DOE to achieve compliance with FFACO
Sufficient                         milestones and regulatory requirements. As a result, Ecology has
                                   historically focused on negotiation to address FFACO compliance
                                   issues rather than formal enforcement. While Ecology with the
                                   support of the Region has been successful in resolving many issues
                                   through its constant, ongoing negotiation efforts, additional
                                   enforcement actions were needed.

                                   For example, Ecology’s experience with interim stabilization of the
                                   SSTs showed that negotiation, by itself, was not successful in
14
     Thirteen months from Ecology’s October 1998 request to DOE for an AIP.

                                                       32                             Report No. 2000-P-00012
                                   achieving compliance with key FFACO milestones. Ecology’s
                                   negotiations in response to DOE’s inability to meet interim
                                   stabilization milestones resulted in continued extensions of the
                                   milestones. As a result of the lack of progress in interim
                                   stabilization, Ecology threatened a civil action. This threat of an
                                   enforcement action resulted in the entry of an enforceable consent
                                   decree in Federal Court that establishes a schedule for completion
                                   of interim stabilization of the SSTs by 2004.

                                   Ecology’s experience with DOE on addressing waste treatment
                                   delays has also shown that continued negotiation has not achieved
                                   timely resolution of significant compliance issues. As discussed
                                   earlier, it took Ecology 13 months to obtain a commitment from
                                   DOE to negotiate a FFACO change request to address planned and
                                   potential delays in waste treatment, waste retrieval, and closure of
                                   the SSTs.

                                   The need for more effective regulation of the TWRS Program is
                                   reflected in a December 1998 letter from the Hanford Advisory
                                   Board15 to senior DOE management and Ecology’s Director. In the
                                   letter, the Hanford Advisory Board stated:

                                            The health, environmental, and economic
                                            consequences of a failure of the tank waste treatment
                                            and disposal program are extreme. The Board has
                                            been consistently correct in its warning of tank waste
                                            pitfalls. The current lack of leadership on the parts of
                                            DOE and Ecology in the implementation of this
                                            program is alarming. Without real leadership and
                                            action in the near-term, this program will fail.
                                            Management of this vital program through inaction is
                                            totally unacceptable.


CONCLUSION                         DOE has not demonstrated the ability or commitment to meet
                                   milestones for interim stabilization and is currently not working
                                   towards meeting several other key milestones. The waste stored in
                                   the SSTs and DSTs represents about 60 percent of the DOE’s
                                   nationwide inventory of high level radioactive waste. The majority

15
    The Hanford Advisory Board is an independent, non-partisan, and broadly representative body consisting of a
balanced mix of the diverse interests that are affected by Hanford cleanup issues. The primary mission of the Board
is to provide informed recommendations and advice to DOE, Ecology, and the Region on major policy issues related
to the cleanup of the Hanford site.

                                                        33                              Report No. 2000-P-00012
of this waste is currently stored in SSTs which are over 30 years
past their design lives and many of them have had leaks. DOE
estimates that it will cost about $30.5 billion to cleanup the 177
storage tanks at Hanford and Phase I of the cleanup alone will cost
$11.3 billion. Additional delays in the TWRS Program increases
the risk of releases into the environment from tank failures and
threats to human health. Furthermore, additional delays and tank
failures will increase the cost of the cleanup program.

DOE’s history of poor performance, the significance of the
environmental problems, the technical complexity of the solutions,
and the cost of the cleanup program necessitate that both Ecology
and the Region develop and implement an oversight and
enforcement strategy that ensure compliance with FFACO
milestones for the TWRS Program. In our view, the revised
strategy should include increased use of formal enforcement
actions, to include penalties, when FFACO milestones are not met
by DOE in order to establish a deterrence to noncompliance.

In addition, Ecology, the Region, and appropriate EPA national
program managers should work jointly with DOE to ensure the
TWRS Program is sufficiently funded to meet FFACO milestones.
If DOE does not receive sufficient funding for the TWRS Program
from Congress, waste treatment and retrieval could be significantly
delayed.

In response to our request for suggested recommendations,
Ecology said that EPA should make the TWRS Program a national
priority and establish Hanford tank farms and acquisition of
treatment capacity as performance measures. Ecology also said
that EPA should advise DOE on DOE’s budget priorities and urge
DOE to elevate Hanford tank waste treatment as a complex-wide
priority. Furthermore, Ecology said that it needed additional
support by EPA on enforcement actions to help counter DOE
resistance.

We agree that EPA should make the TWRS Program a national
cleanup priority and should advise DOE to elevate the program to a
higher funding priority. We also agree that EPA needs to increase
its participation with Ecology in oversight and enforcement of
FFACO milestones for the program.

The Federal Managers Financial Integrity Act (FMFIA) requires the
Regional Administrator to annually make a systemic

                 34                          Report No. 2000-P-00012
                  assessment of regional management controls that protect programs
                  and resources from fraud, waste, mismanagement, and help control
                  programs to achieve intended outcomes. After the assessment is
                  made, the Regional Administrator is required to provide personal
                  assurance that management controls are reasonable to ensure
                  protection of programs, operations, and functions and to notify the
                  EPA Administrator of any deficiencies in management controls.
                  DOE’s noncompliance with RCRA and the FFACO poses a
                  significant threat to human health and the environment. Therefore,
                  we believe that the need for additional oversight and enforcement
                  of RCRA requirements and FFACO milestones by Ecology and the
                  Region is a matter that should be reported as a management control
                  deficiency to the Administrator.

                  In its response to our position papers, the Region stated:

                         EPA and Ecology clearly support a position that
                         effective oversight and/or enforcement of the TWRS
                         Program is necessary... Region 10 believes that EPA
                         and Ecology should be able to negotiate and apply an
                         optimal mix of state and federal resources and
                         authorities to accomplish the regulatory and
                         environmental goal of full compliance and treatment
                         of tank wastes.


RECOMMENDATIONS   We recommend that the Regional Administrator:

                         2-1.Negotiate with Ecology to address oversight and
                         enforcement responsibilities regarding DOE
                         compliance with FFACO and RCRA requirements
                         as part of the 2000/2001 Performance Partnership
                         Agreement (PPA) process. Negotiations should
                         consider:

                         a.Appropriate selection of enforcement and
                         compliance tools available respectively to
                         EPA and Ecology under RCRA,
                         Washington’s Hazardous Waste
                         Management Act, and the Hanford FFACO,
                         specifically considering the availability and
                         suitability of each with respect to achieving
                         DOE compliance.


                                    35                          Report No. 2000-P-00012
                      b.Existing State and Federal compliance and
                      penalty policies, including EPA’s RCRA
                      Civil Penalty Policy and Washington’s
                      Hazardous Waste Toxics Reduction
                      Program Compliance Assurance Policy.

                      2-2.Negotiate with Ecology through the fiscal
                      2000/2001 PPA process specific enforcement or
                      other programmatic actions directed towards timely
                      resolution of tank waste treatment issues and
                      establishment of appropriate enforceable
                      milestones.

                      2-3.Consult with Ecology prior to and during FFACO
                      change negotiations during fiscal 2000 to develop
                      appropriate language addressing mitigation or
                      prevention of environmental risks associated with
                      extending waste treatment, waste retrieval, and
                      closure milestones to be included in DOE FFACO
                      change packages.

                      2-4.Consult with EPA National Program Managers to
                      determine what actions can be taken at the EPA
                      Headquarters level to achieve a higher priority,
                      including receiving funding, on cleanup of the
                      Hanford tanks.

                      2-5.Report the weaknesses in the Hanford TWRS
                      Program as a management control deficiency in the
                      annual FMFIA assurance letter to the EPA
                      Administrator.


REGION’S AND   The Region and Ecology concurred with the recommendations and
ECOLOGY’S      provided an implementation schedule for each recommendation.
COMMENTS       The Region and Ecology commented that they have already
               initiated efforts in response to Recommendation 2-2 as illustrated
               by EPA’s February 3, 2000 letter to Ecology committing EPA
               support for a final tank waste determination for FFACO
               milestones. The Region and Ecology also said that they are
               continuing close collaboration and communication as resolution of
               tank waste milestone and Land Disposal Restriction reporting
               requirement disputes continue.


                                36                         Report No. 2000-P-00012
In addition, the Region and Ecology stated that they are already
engaged in responding to Recommendation 2-3 through joint
participation in current negotiation of tank waste treatment and
retrieval milestones.




                 37                          Report No. 2000-P-00012
[This page was intentionally left blank]




                  38                       Report No. 2000-P-00012
                     CHAPTER 3
 OVERSIGHT OF TANK SAFETY ISSUES NEED ATTENTION


              Although DOE has responsibility for compliance with State and
              Federal hazardous waste regulatory requirements, Ecology has not
              provided sufficient oversight of some safety issues involving SSTs
              and DSTs. Specifically, Ecology: (i) has not ensured that DOE
              satisfactorily met a September 1998 FFACO milestone for the
              resolution of a flammable gas safety question for SSTs and DSTs;
              and (ii) was not timely in providing oversight on DOE’s resolution
              of serious waste level growth and gas retention safety issues
              involving DST SY-101.

              Unresolved flammable gas safety issues have caused significant
              delays in stabilizing the SSTs, and may cause additional delays in
              the TWRS Program and increased risks to human health and the
              environment. In addition, DST SY-101 may eventually lose
              double containment unless the safety issues for the tank are
              adequately and timely resolved, and plans to transfer the waste to
              another tank may create similar safety problems in the receiving
              tank. A loss of double containment increases the risk of a release
              of hazardous and radioactive wastes into the soil and groundwater.

              Ecology was not able to effectively oversee and evaluate DOE’s
              resolution of safety issues mainly because it has not placed
              sufficient emphasis on filling a safety position supporting the
              TWRS Program. This position became vacant during August 1998
              and was not filled at the time of our audit in September 1999.


BACKGROUND    RCRA Subtitle F, Section 6001 requires Federal departments and
              agencies engaged in any activity resulting, or which may result, in
              the disposal or management of solid or hazardous waste to comply
              with State and Federal hazardous waste regulations. Therefore,
              DOE, as the owner and operator of the Hanford Federal Facility, is
              required under RCRA to comply with the State of Washington’s
              and EPA’s hazardous waste regulations.



                               39                         Report No. 2000-P-000012
                WAC Chapter 173-303-Dangerous Waste Regulations and
                40 CFR, Part 265-Interim Status Standards for Owners and
                Operators of Hazardous Waste Treatment, Storage, and Disposal
                Facilities provide regulations applicable to interim status tank
                systems used to store or treat hazardous waste. WAC Chapter
                173-303-400 and 40 CFR, Part 265, Subpart C require in part that
                hazardous waste treatment, storage, and disposal facilities be
                maintained and operated to minimize the possibility of a fire,
                explosion, or any unplanned sudden or non-sudden release of
                hazardous waste or hazardous constituents to air, soil, or surface
                water which could threaten human health or the environment.

                The Hanford FFACO includes requirements and milestones that
                DOE must comply with in order to bring the Hanford Facility into
                compliance with RCRA and the State of Washington’s Hazardous
                Waste Management Act. Among the FFACO requirements are
                milestones for mitigation and resolution safety issues for the SSTs
                and DSTs.

                Ecology has responsibility for oversight and enforcement of the
                RCRA units at Hanford under both Washington’s EPA approved
                Hazardous Waste Program and the FFACO. As the lead regulatory
                agency for the SSTs and DSTs, Ecology is required to provide
                regulatory oversight, including preparation of responses to
                documents submitted by DOE.


RESOLUTION OF   Ecology has not ensured that DOE satisfactorily met FFACO
FLAMMABLE GAS   interim milestone M-40-09, which included a requirement for the
SAFETY ISSUE    resolution of a flammable gas safety question for SSTs and DSTs
WAS NOT         by the end of September 1998. Safety issues, principally
VERIFIED        flammable gas, were the primary causes cited by DOE in FFACO
                modifications delaying interim stabilization.

                Radioactive waste in the tanks generates flammable gas, primarily
                hydrogen. The flammable gas represents a significant safety issue
                because it can be trapped in some waste types and released
                episodically, concentrating in the tank dome where it could burn or
                explode if ignited.

                In 1990, DOE declared a flammable gas unreviewed safety
                question (USQ) based on the generation and possible ignition of
                flammable gas. A USQ is declared by DOE when aspects of the
                facility design or operation relied upon to authorize operation (the

                                  40                         Report No. 2000-P-000012
                  authorization basis) may be inadequate. Closure of a USQ
                  milestone should not occur until the related safety questions have
                  been resolved.

                  In general, the USQ concluded there was inadequate analysis of
                  flammable gas hazards and the controls to manage them. The
                  original USQ, applicable to 23 tanks, was eventually expanded to
                  cover 176 of the 177 SSTs and DSTs. DOE reported to Ecology
                  during September 1998 that it completed the milestone for closing
                  the flammable gas USQ. However, at the time of our audit
                  fieldwork in July 1999 Ecology had not verified that the milestone
                  had been satisfactorily met. Our review of the report DOE
                  submitted to Ecology disclosed that DOE reported controls were
                  adequate for safe storage of tank waste, but they were not adequate
                  for global waste disturbing activities including pumping of the
                  SSTs.

                  In its response to our position papers, Ecology said that the
                  importance placed on interim milestone M-40-09 is somewhat
                  exaggerated. Ecology stated that closing a USQ does not mean
                  that all technicalities of the safety issue are understood. Ecology
                  believes that major milestone M-40-00, which requires DOE to
                  resolve all flammable gas safety issues by September 2001, is more
                  significant.

                  We acknowledge that interim milestone M-40-09 does not close all
                  flammable gas safety issues and has lesser significance than the
                  major milestone M-40-00. However, we believe that Ecology
                  needs to ensure that all milestones associated with flammable gas
                  are adequately completed. Flammable gas has been an on-going
                  problem which has been cited in FFACO modifications delaying
                  interim stabilization since 1990 and needs to be resolved.


OVERSIGHT OF      Ecology was not timely in providing oversight of DOE’s efforts to
SAFETY ISSUES     resolve serious safety issues involving DST SY-101. Ecology
FOR SY-101 WAS    knew in January 1999 that the conditions in the tank had
NOT TIMELY        significantly deteriorated and posed a significant risk to human
                  health and the environment. Yet, Ecology did not assign sufficient
                  staff to oversee DOE’s actions until June 1999.

SY-101            Tank SY-101 contains approximately 1 million gallons of the most
Designated as     highly concentrated waste stored at Hanford. It has been
Watch List Tank   designated as a Watch List tank since January 1991 as a result of

                                   41                         Report No. 2000-P-000012
                  the tank’s generation of a flammable mixture of gases that includes
                  hydrogen, nitrogen, nitrous oxide, and ammonia. Until 1993, the
                  waste in the tank retained gas and periodically released large
                  volumes in sudden, buoyant displacement gas-release events
                  approximately every 100 days. Some of these gas releases
                  exceeded 10,000 cubic feet. This gas retention caused the waste
                  level in the tank to rise and suddenly drop as the gas was released.

                  During July 1993, a mixer pump was installed in the tank to test
                  the effectiveness of mixing waste at controlling the large gas
                  release events and fluctuating waste level. DOE declared the tank
                  mitigated during 1994 after the completion of a series of highly
                  successful tests with the pump.

Tank Conditions   However, DOE notified Ecology in December 1997 that it had
Deteriorated      identified an unexplained rise in the tank’s waste level despite
                  continued use of the mixer pump. At that time, DOE reported that
                  a small rise in the waste level had occurred in the tank over the
                  previous 13-month period and that the rise was not considered to
                  be an immediate safety risk. DOE also disclosed that it had
                  increased mixer pump operations to reduce the waste level rise and
                  was evaluating the effectiveness of the additional operations. In
                  addition, DOE reported that it was developing an action plan to
                  determine the cause and to control of the waste level rise.

                  In January 1999, DOE informed Ecology that the conditions in the
                  tank had significantly deteriorated and posed a significant risk to
                  human health and the environment. Specifically, DOE informed
                  Ecology that the tank’s waste level was rising at an accelerated rate
                  and it estimated the tank would lose double containment by
                  October 1999 if the waste level rise was not mitigated. DOE
                  estimated that the tank would lose double containment at 458
                  inches when the waste level rose into the single contained dome
                  space area of the tank. As of January 1999, DOE reported that
                  waste level in the tank had reached just over 425 inches.

                  As of January 1999, DOE also told Ecology that it attributed the
                  accelerated waste level rise to increased gas retention in a floating
                  crust layer in the tank and that the increased gas retention elevated
                  the risk of a large flammable gas release. DOE informed Ecology
                  that it planned to mitigate the safety issues by October 1999
                  through: (i) removing at least 100,000 gallons of the waste from
                  the tank; (ii) diluting it with water at a 1 to 1 ratio; and (iii) placing
                  the diluted waste in another DST, DST SY-102, for storage.

                                     42                           Report No. 2000-P-000012
                    DOE subsequently disclosed in an April 1999 revision to a USQ
                    for the tank that the ongoing growth of the crust was causing the
                    waste level increase and a commensurate decrease in tank head
                    space. A decrease in head space increases the risk of fire,
                    explosion, or structural failure because flammable gas releases
                    from the waste are concentrated in a smaller area. The USQ also
                    reported that the increased growth in the thickness of the crust
                    could cause the bottom layer of the crust to encroach on the mixer
                    pump suction and, as a result, degrade the effectiveness of the
                    pump in mitigating large gas releases.

Tank Advisory       During April 1999, DOE also requested advice on the resolution of
Panel Expressed     the tank’s safety issues from the Tank Advisory Panel (TAP), a
Concern with Tank   panel of experts on nuclear and mixed wastes. The TAP
Conditions          commented that it should have been notified earlier about the
                    conditions of the tank because the conditions had changed
                    significantly over the 8 months since DOE last met with a
                    sub-panel of its members. The TAP advised DOE that it was
                    evident most of the gas generated by the waste was being retained
                    in the tank and this additional safety concern heightened the
                    urgency with which the gas retention problem, as well as the waste
                    level rise, should be addressed.

                    The TAP also said that the current path forward for mitigation
                    primarily focused on crust growth and that DOE’s plan needed to
                    be reviewed to ensure that increased gas retention was given equal
                    attention. As a result, the TAP did not consider the initial transfer
                    of waste from SY-101 as a solution to the safety issues. The TAP
                    also recommended that DOE develop and evaluate potential
                    solutions as soon as possible and before proceeding with additional
                    transfers or other dilution methods.

                    Furthermore, the TAP expressed concern that transferring waste
                    from the DST SY-101 to DST SY-102 might create similar safety
                    issues in DST SY-102. The TAP stated:

                           With regard to stability of SY-102 waste after the
                           transfer we have been given only a cursory description
                           of plans to study effects of mixing in SY-102. A
                           recent report distributed during the meeting analyzes
                           the possibility of a bouyancy driven gas release event
                           (GRE) and finds that, under conservative tank
                           conditions (should all solids in the waste remain
                           solids), buoyant-type gas release is not fully

                                      43                         Report No. 2000-P-000012
                            eliminated. While the case is said to be conservative,
                            the data is yet to be collected to prove insufficient
                            solids will be added to the tank to permit buoyant
                            turnovers.

                     Consequently, to resolve safety concerns, the TAP recommended
                     that DOE obtain a sufficient understanding of the kinetics of
                     dissolution/precipitation and settling of solids in DST.

Ecology’s            Although Ecology managers told us that the waste level rise and
Oversight Was        flammable gas retention issues of the tank were considered very
Insufficient Until   serious, Ecology did not dedicate sufficient staff resources to
June 1999            monitor and formally evaluate DOE’s remediation activities until
                     the beginning of June 1999, or just 4 months before DOE
                     estimated the tank might lose double containment. As a result of
                     the significance of the concerns expressed by the TAP during
                     April 1999, Ecology assigned two staff members on a part-time
                     basis to oversee DOE’s remediation activities for the tank. In
                     addition, Ecology issued a letter to DOE on June 3, 1999
                     recommending immediate attention to the waste level and
                     flammable gas safety issues. Ecology also requested additional
                     information on conditions in the tank and DOE’s planned actions
                     to resolve the issues.

                     In its response to our position papers Ecology agreed that there was
                     a lapse in oversight on the SY-101 safety issue between January
                     1999 and June 1999, during which critical developments within
                     tank waste behavior were underway. Ecology said they made
                     efforts to be as involved as possible during that time, including
                     involvement in the April 1999 TAP meeting on this issue. Ecology
                     also said that it issued another concern letter on SY-101 to DOE
                     during September 1999.


UNRESOLVED           Unresolved flammable gas safety issues have caused significant
SAFETY ISSUES        delays in stabilizing the SSTs, and may cause additional delays in
INCREASE RISKS       the TWRS Program and increased risks to human health and the
TO THE               environment. Therefore, Ecology needs to ensure that all FFACO
ENVIRONMENT          milestones requiring resolution of flammable gas safety issues are
                     adequately completed by DOE.

                     In addition, Tank SY-101 may eventually lose double containment
                     unless the safety issues for the tank are adequately and timely
                     resolved. Furthermore, DOE’s plan to avoid this hazard by

                                      44                         Report No. 2000-P-000012
                 transferring waste from the tank may create similar safety problems
                 in the receiving tank, Tank SY-102. A loss of double containment
                 increases the risk of a release of hazardous and radioactive wastes
                 into the soil and groundwater.

                 In its response to our position papers, Ecology stated the crust level
                 growth has been static since June 1999, and as a result, the loss of
                 double containment appears to lessened. However, Ecology agreed
                 that the tank needs to be pumped and that this is anticipated to take
                 place during mid-December 1999.

                 Ecology’s comments are noted. We also note that subsequent to
                 our fieldwork, DOE did complete an initial transfer of waste in
                 December 1999, and as a result, the short term risk of loss of
                 double containment appears to be mitigated. However, the safety
                 issues have not been resolved. The TAP stated that the initial
                 waste transfer is not the solution to the safety issues, and that
                 DOE’s current path forward does not adequately consider safety
                 issues caused by increased gas retention. In addition, Ecology’s
                 September 9, 1999 letter to DOE expressed several concerns with
                 DOE’s plan to mitigate the crust growth and gas retention beyond
                 the initial waste transfer. Ecology said the chemistry of the waste
                 is not well understood, and raised concerns regarding the
                 possibility of creating a reactive condition in the waste receiver
                 tank.

                 If the safety issues are not adequately remediated, risks associated
                 with gas retention in SY-101 may remain (including loss of
                 containment), and similar problems may be created in the waste
                 receiver tank.


ECOLOGY HAS      Ecology was not able to effectively oversee and evaluate DOE’s
NOT PLACED       resolution of safety issues, including the DST SY-101 issues,
SUFFICIENT       mainly because it has not placed sufficient emphasis on filling a
EMPHASIS ON      safety position supporting the TWRS Program. This position
FILLING SAFETY   became vacant during August 1998 and was still not filled at the
POSITION         time of our audit in September 1999. According to Ecology
                 management, Ecology tried to fill the vacancy internally in
                 response to a reduction in force of some other agencies within the
                 Department. However, the internal recruitment was unsuccessful.
                 As a result, Ecology was in the process of trying to fill the vacancy
                 through sources external to Ecology.


                                   45                         Report No. 2000-P-000012
                  According to the project manager for TWRS storage operations,
                  Ecology needs to fill a half-time safety position in order to provide
                  adequate oversight coverage for TWRS Program safety issues. In a
                  December 1998 justification for filling the safety position vacancy,
                  Ecology’s project manager responsible for SST and DST storage
                  operations said that many of the safety issues for the TWRS
                  Program have not been addressed because Ecology staff assigned
                  to safety issues shrank over the past 2 years from approximately
                  120 percent of a full time position to the current empty status. In
                  the justification for filling the safety position vacancy the project
                  manager stated:

                         Safety is often the excuse DOE uses to explain
                         delays… Safety played an important role in recent
                         TWRS successes such as the PCHB decision in
                         favor of Ecology on the C-106 Tank Retrieval
                         Issue and current Interim Stabilization negotiations.
                         Therefore, it is imperative that this position be given
                         a high priority and be filled as soon as possible.

                  In its response to our position papers, Ecology concurred that the
                  safety position was unfilled between August 1998 and June 1999.
                  However, Ecology believed that even when no staff were expressly
                  dedicated pertinent safety issues were still adequately addressed.

                  We acknowledge that Ecology was involved in safety issues to
                  some extent during the period between August 1998 and June
                  1999. Although two staff were assigned on a part-time basis to
                  oversee DOE’s safety activities for DST SY-101, Ecology’s safety
                  position was still unfilled as of September 1999. The lack of an
                  evaluation of DOE’s completion of the FFACO USQ milestone,
                  and the lack of oversight over the DST SY-101 safety issues until
                  June 1999, show a need for improvement in Ecology’s oversight of
                  DOE’s resolution of safety issues. Given their importance,
                  adequate resources need to be continually committed to safety
                  issues.


RECOMMENDATIONS   We recommend that the Regional Administrator:

                         3-1.Negotiate fiscal 2000/2001 PPA commitments with
                         Ecology to oversee TWRS program safety issues.



                                    46                         Report No. 2000-P-000012
                     3-2.Review Ecology’s progress towards meeting these
                     commitments during mid-year and end of year PPA
                     evaluations. It is important that the commitments address
                     Ecology’s safety position staffing shortage.


REGION’S AND   The Region and Ecology concurred with the recommendations and
ECOLOGY’S      provided an implementation schedule for each recommendation.
COMMENTS




                               47                        Report No. 2000-P-000012
[This page was intentionally left blank]




                  48                       Report No. 2000-P-000012
                      CHAPTER 4
        ECOLOGY IS NOT CONDUCTING ENOUGH
                TANK INSPECTIONS


               Although DOE is responsible for compliance with State and
               Federal hazardous waste regulations, Ecology, as the lead
               regulator, did not conduct a sufficient number of tank inspections
               to assess DOE compliance with RCRA.

               Specifically, Ecology inspected only 22 percent of the tanks over a
               period of approximately 7 years even though RCRA, as amended
               by the Federal Facility Compliance Act, required thorough annual
               inspections of Federal facilities. In addition, inspection coverage
               for the tanks did not meet inspection commitments specified in
               PPA workplans for the State’s fiscals 1998 and 1999. Ecology had
               not increased the number of inspections although 7 of the 8
               inspections conducted during the 7-year period ended February
               1999 identified serious compliance issues.

               These conditions occurred because: (i) Ecology was not placing a
               sufficiently high priority on conducting tank inspections; and
               (ii) the Region was not monitoring PPA inspection commitments
               for Hanford.


BACKGROUND     Section 3007 of RCRA, as amended by the Federal Facility
               Compliance Act of 1992, requires EPA or states with EPA
               approved hazardous waste programs to conduct a thorough
               inspection of each Federal facility that treats, stores, or disposes of
               hazardous wastes on an annual basis. The purpose of the
               inspection is to enforce compliance with RCRA.

               The Hanford Facility qualified for interim status, and the SSTs and
               DSTs are currently operating under interim status requirements.
               WAC Chapter 173-303-Dangerous Waste Regulations and
               40 CFR, Part 265-Interim Standards for Owners and Operators of
               Hazardous Waste Treatment, Storage, and Disposal Facilities
               provide regulations applicable to interim status tank systems used

                                 49                            Report No. 2000-P-00012
                                   to store or treat hazardous waste. The WAC Chapter 173-303-400
                                   and 40 CFR, Part 265, Subpart J include requirements for
                                   assessment of the integrity of tank systems, containment and
                                   detection of releases, general operating requirements, responses to
                                   leaks or spills, disposition of leaking or unfit for use tank systems,
                                   and closure and post closure care.


INSPECTION                         Ecology inspected only 22 percent of the tanks over a period of
COVERAGE WAS                       approximately 7 years even though RCRA, as amended by the
INADEQUATE                         Federal Facility Compliance Act, required thorough annual
                                   inspections of Federal facilities. Ecology’s inspection coverage for
                                   the tanks also did not meet PPA workplan commitments for fiscals
                                   1998 and 1999. The required number of inspections had not been
                                   conducted although 7 of the 8 inspections conducted during the
                                   7-year period ended February 1999 identified serious compliance
                                   issues.

Small Percentage                   Although thorough annual inspections of the Hanford Facility were
of Tanks Have                      required by RCRA, Ecology inspected only 39 of the 177 (22
Been Inspected                     percent) SSTs and DSTs to determine whether the tanks were in
                                   compliance with interim status regulations over a 7-year period.

                                   Ecology performed only 8 tank/tank farm16 inspections during the
                                   7-year period from January 1992 through February 1999 which
                                   assessed SST or DST compliance with the interim status
                                   regulations for tank systems. Ecology identified 28 “tank farm”
                                   inspections of various scopes performed during this period,
                                   including inspections of waste drums, waste containers and
                                   training. However, only 8 of these inspections covered SST or
                                   DST compliance. Additionally, no tank inspections were
                                   performed during the 3-year period between May 1993 and May
                                   1996.

                                   Furthermore, the inspections covered only 21 of the 149 SSTs and
                                   18 of the 28 DSTs. The inspected tanks were located in 4 of the 12
                                   SST tank farms and 3 of the 6 DST tank farms. Ecology did not
                                   conduct inspections of any tanks located in 8 (67 percent) of the
                                   SST tank farms and 3 (50 percent) of DST tank farms during the
                                   7-year period.
16
   Inspections conducted by Ecology were of either individual tanks or tank farms. A tank farm is a group of tanks
that were constructed together and are located in the same geographical area. Of the eight inspections, 5 were of
individual tanks and 3 were of tank farms.


                                                        50                               Report No. 2000-P-00012
                   In Ecology’s response to our position papers regarding the small
                   number of tank inspections, Ecology said that oversight of tank
                   farms includes efforts beyond the compliance inspection staff,
                   including staff involved with permitting and closure plan
                   development, characterization, interim stabilization, and FFACO
                   milestones.

                   Acknowledging the importance of these efforts, we believe they do
                   not replace the role of inspections. The Federal Facility
                   Compliance Act specifically states that inspections are required to
                   enforce compliance with RCRA.

Inspection         Ecology’s inspection coverage for the SSTs and DSTs did not meet
Coverage Did Not   inspection commitments specified in PPA workplans for the
Meet PPA           State’s fiscals 1998 and 1999. The PPA’s purpose is to establish
Commitments        the Region’s and Ecology’s mutual goals, objectives, activities, and
                   performance measures to meet the environmental and public health
                   priorities of the State of Washington. Towards meeting this
                   purpose, the PPAs between Ecology and the Region for the State’s
                   fiscals 1998 and 1999 included workplans of activities that
                   Ecology was to accomplish each year. The workplans for both
                   years included SST and DST tank farm inspections at Hanford.
                   These workplan commitments amount to a six year inspection
                   cycle for all SSTs and DSTs.

                   Although the fiscal 1998 PPA specified that Ecology was to
                   inspect one SST tank farm and one DST tank farm, it only met the
                   DST tank farm (SY Tank Farm) inspection requirement. With
                   respect to SSTs, Ecology only inspected one tank (Tank SX-104)
                   during the year. In addition, Ecology did not inspect any tanks
                   during fiscal year 1999 even though the PPA required 2 SST and 2
                   DST tank farm inspections. Thus, rather than inspect 6 of the 18
                   SST/DST tank farms during the 2 years, only 1 tank farm plus 1
                   tank were inspected. If the fiscal 1998 and 1999 rate of inspections
                   continues, it will take about 18 years to inspect all tanks.

                   In its response to our position papers, Ecology agreed that the
                   general tank farm inspections described in the PPA have not been
                   conducted. Ecology also said they have ceased implementation of
                   the “six year inspection cycle” at tank farms in previous plans.
                   Ecology stated a comprehensive inspection of SST tank farms is
                   underway, as well as a review of the FFACO milestone for DST
                   integrity assessment. Ecology also stated that next year’s
                   inspection planning will be decided beginning February 2000.

                                    51                          Report No. 2000-P-00012
Inspections                        Ecology had not increased the number of inspections even though
Identify Serious                   7 of the 8 inspections that were conducted identified serious
Compliance                         compliance issues. Ecology’s inspections disclosed that DOE
Issues                             consistently failed to comply with requirements to: (i) provide
                                   adequate leak detection systems; (ii) adequately inspect or respond
                                   to deficiencies in tank systems; and (iii) adequately respond or
                                   have measures to respond to leaks, spills, and disposition of unfit
                                   for use tank systems. DOE had also failed to timely notify Ecology
                                   of indications of leaks of radioactive waste, a very serious
                                   violation. The results for the 7 inspections where significant
                                   compliance issues were identified are summarized below.

                                   •        Inspections of SY Tank Farm, April 1998, and DST
                                            SY-101, February 1992. Ecology’s February 1992
                                            inspection of DST SY-101 found: (i) a leak detection
                                            device was incorrectly set17 for more than 2 years; (ii) leak
                                            detection equipment was inoperable for at least 3 months;
                                            and (iii) a leak detection pit was filled with liquid of an
                                            unknown composition rendering critical monitoring
                                            equipment non-functional. The inspection report concluded
                                            that “a leak from the tank system to the environment could
                                            go or may have gone undetected for extended periods of
                                            time.”

                                            Although DOE reported that the violations identified during
                                            Ecology’s 1992 inspection were corrected, Ecology’s April
                                            1998 inspection found that the violations had persisted or
                                            recurred. There was no record of any Ecology inspections
                                            of the tank during the 6 years between the 1992 and 1998
                                            inspections.

                                   •        Inspection of SST SX-104, April 1998. Ecology’s
                                            inspection found that DOE pumped waste from tank
                                            SX-104 into transfer lines knowing that heat trace
                                            equipment to prevent the line from plugging was not
                                            working. Consequently, the transfer line clogged resulting
                                            in unnecessary exposure of workers to radioactive waste.
                                            The inspection also found DOE had not concluded whether


17
   The leak detection device was incorrectly installed 2½ feet above the tank floor. It should have been installed
        .
between to ½ inch above the tank floor in order to ensure detection of leaks of less than several thousand gallons.


                                                        52                               Report No. 2000-P-00012
    the tank was leaking more than 4 months after a drop in
    liquid level was observed, and had failed to meet
    requirements to remove waste from an unfit for use tank
    system as timely as possible to prevent harm to the
    environment. Additionally, DOE failed to execute the
    pumping of the tank as required by the FFACO.

•   Inspection of SST BX-111, May 1993. Ecology’s
    inspection, performed in response to indications of a release
    of dangerous waste from the tank, found DOE failed to:
    (i) inspect data from monitoring and leak detection
    equipment daily; (ii) immediately report to Ecology
    indications of a release of radioactive mixed waste; and
    (iii) immediately provide reports requested by Ecology
    during the inspection.

•   Inspection of C-SST Farm, December 1992. Ecology’s
    inspection found that liquid level and tank temperature
    detection instruments were frequently out of service, and
    that leak detection drywells were not monitored daily and
    did not provide adequate primary leak detection.

•   Inspection of SST T-101, November 1992. Ecology’s
    inspection found that between April 1992 and September
    1992 the tank leaked approximately 7,425 gallons of
    extremely hazardous and radioactive waste and that the
    tank may be continuing to leak. The inspection also found
    that the tank’s leak detection systems and devices were
    frequently out of service, and when operating, these
    systems and devices were inadequate. The inspection
    report noted that Ecology was not notified of leakage from
    the tank until 6 months after monitoring data indicated the
    tank had begun leaking.

•   Inspection of SSTs C-105 and C-106, August 1992.
    Ecology’s inspection found that a malfunction in the liquid
    level monitoring equipment had not been corrected for
    approximately 3 months, and that records showed no
    readings of liquid level measurement data for 43 days.
    Ecology’s report stated that as liquid level monitoring
    systems now stand, data is often poor or inadequate,
    equipment failures are common, controls are often relaxed,
    and management’s overall level of concern is less than
    necessary.

              53                          Report No. 2000-P-00012
REASONS FOR          We attribute the lack of inspections to two causes: (i) Ecology was
INSUFFICIENT         not placing a sufficiently high priority on conducting tank
INSPECTION           inspections; and (ii) the Region was not monitoring inspection
COVERAGE             commitments in the PPA .

Ecology Was Not      Ecology was not placing a sufficiently high priority on conducting
Placing Sufficient   tank inspections. According to Ecology’s inspection staff,
Priority on          vacancies in inspector positions for the TWRS Program and other
Inspections          priorities such as investigations of reported tank leaks by DOE
                     prevented Ecology from following the annual inspection plans.
                     With respect to vacant inspector positions, during the audit we
                     noted that only 3 of the 5 inspector positions for the TWRS
                     Program were filled; 1 of which was filled in February 1999.

                     Ecology agreed in its response to our position papers that inspector
                     turnover and other priorities had reduced the number of inspections
                     initiated. Ecology stated it anticipates full staffing of inspector
                     positions by January 2000 and, after appropriate training, the
                     ability to implement a balanced inspection oversight program.

Region Was Not       While Section 3007 of RCRA requires thorough annual inspections
Monitoring PPA       of Federal facilities that treat, store, or dispose of hazardous
Commitments          wastes, the Region apparently concluded that resource constraints
                     prevented inspecting all Hanford tanks annually. Based on the
                     fiscal 1998 and 1999 PPA workplans, the Region apparently
                     concluded that a 6-year cycle of conducting inspections of all 177
                     tanks would be reasonable.

                     Although the PPAs specified that Ecology and the Region would
                     assess the progress, as well as identify adjustments and additional
                     actions that need to be taken throughout the terms of the
                     agreements, the Region did not monitor the inspection
                     commitments to determine if they were met. Staff of the Region’s
                     Office of Waste and Chemicals Management stated that they had
                     relied on Ecology to ensure that the inspection commitments were
                     met.

                     In its response to our position papers, the Region stated it monitors
                     Ecology inspection PPA commitments through mid-year and
                     end-of-year evaluations. Ecology’s response said it believes the
                     Region has monitored and enforced inspection efforts at Hanford
                     through reviews of PPA commitments, oversight inspections, and a
                     multi-media inspection performed in 1998.

                                       54                          Report No. 2000-P-00012
                                    The Region’s and Ecology’s comments are noted. However, we
                                    found the Regions’s fiscal 1998 year-end and fiscal 1999 mid-year
                                    program evaluation reports for Ecology did not address PPA
                                    inspection commitments for Hanford. The purpose of the PPA is
                                    to ensure that the State’s environmental priorities are being met.
                                    Therefore, Hanford inspection commitments should be monitored
                                    by the Region in order to assess the progress, as well as identify
                                    adjustments and additional actions that need to be taken throughout
                                    the terms of the agreement.


DOE VIOLATIONS                      The limited number of tank inspections conducted by Ecology
AND RELEASES                        indicate that there are significant weaknesses in DOE’s monitoring
OF HAZARDOUS                        program for tank leaks. Without adequate inspection coverage,
WASTE MAY GO                        DOE violations of State and Federal hazardous waste regulations,
UNDETECTED                          including unreported releases of hazardous waste, may go
                                    undetected.

                                    DOE’s monthly waste tank summary reports identify that all eight
                                    SST tank farms that have not been inspected since at least 1992
                                    have had at least one tank designated as an “assumed leaker”18.
                                    Such releases pose serious human health and environmental risks.




RECOMMENDATION                      We recommend that the Regional Administrator:

                                             4-1.Establish annual EPA and Ecology inspection
                                             commitments through the existing 2000/2001 PPA
                                             process and in accordance with the Compliance
                                             Assurance Agreement Between the Washington
                                             Department of Ecology and the United States
                                             Environmental Protection Agency for the
                                             Hazardous Waste Program (1997)19, including a
18
  The integrity classification assigned to a waste storage tank when monitoring data indicate a loss of liquid
attributed to a breach of the tank’s integrity.
19
   The Compliance Assurance Agreement Between the Washington Department of Ecology and the United States
Environmental Protection Agency for the Hazardous Waste Program (1997) defines the respective roles and
responsibilities of the two agencies for achieving compliance with Federal and State hazardous waste laws and
regulations. The agreement also establishes oversight criteria, performance measures, and oversight procedures to
be used by the Region.

                                                          55                               Report No. 2000-P-00012
                                   mid-year and end-of-year review of commitment. EPA’s review of
                                   Ecology inspection and compliance commitments should be in
                                   accordance with EPA/State Agency Agreement on Compliance
                                   Assurance Principles (May 1997)20 and Compliance Assurance
                                   Evaluation Principles (July 1998)21.


REGION’S AND                       The Region and Ecology concurred with the recommendation and
ECOLOGY’S                          provided an implementation schedule.
COMMENTS




20
   The purpose of the EPA/State Agency Agreement on Compliance Assurance Principles (May 1997) is to clarify
the roles of the states and the Region in compliance and enforcement matters, foster a more collaborative approach,
enhance the sharing of information, and continue to improve performance measurement in compliance assurance for
environmental programs. The principles also outline criteria for performance measurement and oversight by the
Region.

21
   The Compliance Assurance Evaluation Program Principles (July 1998) clarifies the Region’s expectations for
delegated state compliance assurance programs. The principles also define the elements of a successful State
compliance assurance program and formulate the basic operating principles for the Region’s evaluation of a
compliance assurance program.

                                                        56                              Report No. 2000-P-00012
                   CHAPTER 5
LEAK DETECTION AND INVESTIGATION PROCEDURES
    DO NOT PROVIDE ADEQUATE PROTECTION
             TO THE ENVIRONMENT

            Effective leak detection systems have not been installed by DOE
            for all Hanford tanks. In addition, DOE has not always conducted
            adequate, timely, or documented investigations of suspected tank
            leaks. Specifically, we found:

            •      Original leak detection systems installed in 58 of the 149
                   SSTs were no longer effective.

            •      An investigation had not been conducted into a possible
                   ongoing leak from one SST that leaked in the past.

            •      Investigations were not completed timely for suspected
                   leaks from two SSTs that leaked in the past.

            •      The investigation results of a suspected leak from one SST
                   were not documented.

            These conditions occurred mainly because Ecology has not placed
            sufficient emphasis on ensuring that DOE has implemented an
            effective leak detection and investigation program. Specifically,
            Ecology has not: (i) required DOE to establish a leak detection
            program for all SSTs that meets State and Federal regulatory
            requirements; and (ii) has not provided sufficient oversight and
            enforcement over DOE’s leak assessment activities.

            As noted in Chapter 2, at least 1 million gallons of highly toxic and
            radioactive waste has leaked from 67 of Hanford’s 149 SSTs, some
            of which has already reached the groundwater. Without effective
            leak detection systems and an effective leak investigation process,
            there is no assurance that tank leaks will be identified and
            remediated timely. Minimizing the extent of leaks and an effective
            leak investigation process for the SSTs are critical to preventing
            additional groundwater contamination.


                             57                            Report No. 2000-P-2000
BACKGROUND                         DOE, as the owner and operator of the Hanford Federal Facility, is
                                   required to comply with State and Federal hazardous waste
                                   regulations under RCRA Subtitle F, Section 6001.

                                   WAC Chapter 173-303-Dangerous Waste Regulations and
                                   40 CFR, Part 265-Interim Standards for Owners and Operators of
                                   Hazardous Waste Treatment, Storage, and Disposal Facilities
                                   include requirements for containment and detection of tank
                                   releases for interim status tank systems used to store or treat
                                   hazardous waste. The WAC Chapter 173-303-400 and 40 CFR,
                                   Part 265, Subpart J require that tank systems provide a leak
                                   detection system which is capable of detecting a leak within 24
                                   hours, or within the earliest practicable time if existing
                                   technologies or site conditions do not allow detection within 24
                                   hours.

                                   Ecology has the responsibility for oversight and enforcement of the
                                   RCRA units at Hanford under both Washington’s EPA authorized
                                   Hazardous Waste Program and the FFACO. Therefore, it has
                                   responsibility for overseeing and enforcing DOE’s compliance
                                   with State and Federal laws and regulations which apply to the
                                   SSTs and DSTs.


LEAK DETECTION                     Currently, 58 of the 149 aging SSTs do not have effective leak
SYSTEMS WERE                       detection systems. Thirty-nine of the 58 SSTs, or 67 percent, have
NOT INSTALLED                      been designated as “assumed leakers”. All 58 tanks have been
                                   interim stabilized, but they still contain a total of 6.3 million
                                   gallons of high level radioactive waste in the form of liquid, sludge
                                   and saltcake. Forty-one contain drainable liquid totaling
                                   approximately 500,000 gallons22.

                                   The 58 tanks were identified as having no primary or secondary
                                   leak detection systems in DOE’s Operating Specification
                                   Document (OSD), Operating Specifications for Tank Farm Leak
                                   Detection and Single Shell Tank Intrusion Detection. The OSD
                                   establishes primary and backup leak detection systems as well as
                                   monitoring frequencies for the SSTs. These leak detection systems
                                   consist of in-tank liquid level measurement devices and liquid

22
   The amount of drainable liquid in each tank ranges from 1,000 to 48,000 gallons. Approximately one third of
them contain more than 10,000 gallons of drainable liquid.


                                                       58                                Report No. 2000-P-2000
                                            SST Configuration Showing Various Leak Detection Devices
                                          (Source: Final Environmental Impact Statement for the TWRS,
                                                          DOE and Ecology, April 1996)



                                    observation wells23. This document listed “none” for primary and
                                    backup leak detection systems and did not specify a monitoring
                                    frequency for each of the 58 tanks.

                                    In its response to our position papers, Ecology explained that the
                                    surface level measuring devices installed in the 58 tanks were
                                    ineffective because the tanks were interim stabilized. With respect
                                    to the surface level measuring devices, Ecology said that the
                                    devices were not effective because the tanks either did not contain
                                    drainable liquid waste or contain liquid waste at levels which are
                                    too low to accurately measure. Ecology also said that it was
                                    possible that a new technology could monitor the liquid level in the
                                    tanks. However, Ecology suggested that it may be more productive
                                    to monitor the vadose zone underneath the tanks. Ecology
                                    explained that vadose zone monitoring would provide not only
                                    information on the integrity of the tanks, but would also provide
                                    much needed data regarding past leak behavior and identify
                                    whether tanks were continuing to leak.


23
   Liquid observation wells are used to monitor the liquid level in SSTs and extend to within 1 inch of the bottom of
the waste tank. Gama and neutron probes are used in the wells to measure the liquid level.


                                                         59                                 Report No. 2000-P-2000
                We acknowledge Ecology’s comments with respect to the
                ineffectiveness of current surface level measuring devices with
                measuring tank waste that is not drainable or contains low amounts
                of liquid. In our opinion, vadose monitoring systems which ensure
                timely identification of tank leaks would meet the intent of the
                State and Federal regulations.


LEAK            DOE had not conducted a formal leak investigation to determine if
INVESTIGATION   SST BY-105 was leaking even though the liquid waste level in the
WAS NOT         tank has been decreasing at a rate of about 0.6 inches a year since
CONDUCTED       1994. A drop of 0.6 inches in this tank is the equivalent of about
                1,700 gallons.

                The tank contains hazardous chemical and radioactive wastes. In
                addition, it contains 63 tons of cement that was added in 1966 as
                part of a tank solidification pilot operation. The tank was
                designated as an assumed leaker in 1984, 15 years ago. DOE
                estimated that the tank released approximately 8,000 gallons of
                waste as a result of the leak. As of the end of March 1999, DOE
                estimated that the tank contained 192,000 gallons of drainable
                liquid including 186,000 gallons of pumpable liquid.

                In response to the leak, Ecology established a FFACO milestone
                for DOE to interim stabilize the tank by September 1991. Because
                of unresolved safety issues and pumping complications created by
                the cement, the original milestone was extended from September
                1991 to December 1997 and then to September 1999 under the
                FFACO.

                Interim stabilization of the tank was extended again under the
                Interim Stabilization Consent Decree, which became effective in
                August 1999. The Consent Decree requires DOE to start interim
                stabilization of the tank by July 2001. Ecology staff informed us
                that BY-105 was not scheduled for interim stabilization sooner
                under the Consent Decree because: (i) the tank was no longer
                leaking; and (ii) other tanks were identified as posing a greater risk
                to the environment due to their waste content and higher waste
                volume.

                However, liquid waste level monitoring data for the tank covering
                the period from January 1985 to January 1999 shows that the
                tank’s liquid level started decreasing in January 1994 at a steady


                                  60                            Report No. 2000-P-2000
                   rate of about 0.6 inches a year. From January 1994 to January
                   1999 the waste level fell from about 144 inches to about 141
                   inches. When we asked Ecology staff about the downward trend,
                   we were informed that they were unaware of the waste level
                   decrease. In response to our inquiry, Ecology requested that DOE
                   provide an explanation for the downward trend.

                   DOE’s response to Ecology’s inquiry identified that a formal leak
                   investigation had not been conducted on the decrease in liquid
                   level. However, DOE speculated that the decrease in the tank’s
                   liquid waste level was caused from a redistribution of the waste in
                   the tank. DOE explained that the crust level measurement in the
                   tank fell at about the same time as the liquid level started falling in
                   the tank and that the crust level has been rising steadily since it fell
                   in January 1994. DOE said that the crust and liquid level
                   anomalies appeared to be related and theorized that a section of
                   crust which was suspended above the liquid waste fell into the
                   liquid. According to DOE, this section of crust may be absorbing
                   the liquid waste and causing the crust level and liquid level
                   measurements to rise and fall, respectively.

                   Ecology staff told us that DOE’s explanation indicated that DOE
                   had not conducted a rigorous enough investigation into the
                   decrease in waste level. Because DOE had not completed a formal
                   leak investigation on the tank, we believe that there is no assurance
                   that the steady decrease in the tank’s waste level is not the result of
                   a new leak.


INVESTIGATIONS     Although SSTs SX-104 and B-111 had leaked in the past,
WERE NOT           investigations into recent suspected leaks were not completed
TIMELY             timely by DOE.

SST SX-104 Was     DOE did not investigate timely a suspected leak of SST SX-104,
Not Investigated   even though the tank had leaked in the past and had not been
Timely             interim stabilized.

                   SST SX-104 was designated as an assumed leaker in 1988 and
                   DOE estimated that about 6,000 gallons leaked from the tank at
                   that time. In response to the leak, DOE pumped approximately
                   113,000 gallons of waste from the tank during 1988 and 1989.
                   Because the tank was designated as an assumed leaker, Ecology
                   established a FFACO milestone for DOE to interim stabilize the


                                     61                             Report No. 2000-P-2000
                                   tank by September 1990. However, the milestone was revised to
                                   require DOE to start pumping the tank by September 1997 after
                                   four extensions. The extensions were made because flammable gas
                                   safety issues with the tank had not been resolved. DOE missed the
                                   milestone and did not resume pumping the tank until April 1998.
                                   As of September 1999, the tank was still undergoing interim
                                   stabilization.

                                   In December 1997, DOE reported to Ecology that the waste level
                                   in the tank fell approximately 2 inches, a decrease of -7 standard
                                   deviations24. At that time, the tank contained 201,000 gallons of
                                   drainable liquid including 195,000 gallons of pumpable liquid
                                   hazardous and radioactive wastes. In response to the reported
                                   decrease in waste level, Ecology immediately initiated a
                                   compliance inspection of the tank.

                                   During the December 1997 inspection, Ecology found that DOE
                                   made a determination that the decrease in waste level was caused
                                   from atmospheric pressure. However, Ecology concluded that
                                   DOE had not performed a thorough evaluation because it could not
                                   provide sufficient evidence to support that the tank had not leaked.

                                   DOE did not complete an investigation that was acceptable to
                                   Ecology until April 1998, or about 4 months after the decrease in
                                   waste level was identified. In April 1998, DOE submitted an
                                   atmospheric pressure study on the tank to Ecology. The study
                                   concluded that the decrease in waste level was attributable to
                                   atmospheric pressure and gas retention in the tank rather than a
                                   leak. After reviewing the study, Ecology accepted DOE’s
                                   conclusion that the tank had not leaked.

                                   Although Ecology accepted DOE’s explanation for the decrease in
                                   waste level, Ecology concluded that DOE had not established
                                   adequate procedures for tracking and evaluating suspected tank
                                   leaks. As a result, Ecology issued DOE a notice of correction in
                                   November 1998 addressing violations and concerns identified
                                   during its inspection of the tank. In the letter, Ecology stated:

                                            Ecology is concerned about the facility’s
                                            ability to determine, in a timely fashion, when a

24
  Ecology considers a tank to be leaking when the tank’s waste level decreases by more than three standard
deviations outside of the normal waste level range for the tank.


                                                       62                                Report No. 2000-P-2000
                          tank is actually leaking. There is no action for this
                          concern required by this letter; however,
                          Ecology will be addressing this issue in the
                          on-going investigation of tank B-111.

SST B-111 Was      DOE’s investigation of a suspected leak from SST B-111 was not
Not Investigated   completed timely even though Ecology advised DOE that its
Timely             concerns with DOE’s leak investigation process would be
                   addressed during the investigation of the tank.

                   SST B-111 was designated as an assumed leaker in 1978 and was
                   interim stabilized during 1985. DOE estimated that about 8,000
                   gallons leaked from the tank and that it contained 22,000 gallons of
                   drainable liquid including 16,000 gallons of pumpable liquid
                   hazardous and radioactive wastes as of March 1999.

                   In early October 1998, DOE reported to Ecology that the tank’s
                   waste level decreased in September 1998 by approximately 1.5
                   inches, a decrease in excess of -3 standard deviations. DOE
                   evaluated the cause for the decrease in waste level by conducting
                   two leak investigations over the period from October 1998 to June
                   1999.

                   The two evaluations were conducted using a new leak assessment
                   process that DOE developed in response to Ecology’s concerns
                   with the procedures previously used for evaluating Tank SX-104.
                   Under the revised process, a team of experts conducted a
                   probabilistic assessment of whether the tank leaked using
                   monitoring data for the tank. The procedure’s guidelines designate
                   a tank as an assumed leaker when the probability that a leak
                   occurred is assessed at greater than 50 percent.

                   The first assessment was conducted in October 1998 and arrived at
                   a mean probability of 55 percent that the tank leaked. The
                   assessment also identified that the decrease could have been caused
                   from a gas release. DOE concluded that the evidence of a new
                   tank leak was relatively weak even though the probability of a leak
                   was assessed at greater than 50 percent. Because the assessment
                   results showed a high level of uncertainty on the cause of the waste
                   level decrease, Ecology requested that DOE identify additional
                   monitoring data, including hydrogen gas release data, in order to
                   provide a more accurate conclusion.


                                    63                            Report No. 2000-P-2000
                DOE did not complete a new assessment until June 1999, 8 months
                after it first reported the decrease in the tank’s waste level. Based
                on the results from the second assessment, DOE concluded that the
                decrease in waste level was caused from a small gas release or
                other level adjustment rather than a leak. The conclusion was
                based on a low probability of 5.6 percent that the tank leaked in
                September 1998. After meeting with DOE in July 1999 on the leak
                assessment results, Ecology concurred with DOE’s leak assessment
                conclusion.

                In its response to our position papers, Ecology stated:

                       We concur that leak determinations by DOE take too
                       much time. We would like to point out however that
                       leak investigations vary in complexity and level of
                       effort. It is difficult to agree on a hard and fast time
                       period in which a leak determination must be
                       completed. The fact that DOE reacted appropriately
                       by starting the leak determination effort and notifying
                       Ecology indicates that the process, including the new
                       process developed after SX-104, is working as
                       intended. Our primary concerns with the current
                       efforts are that DOE does not fully include Ecology in
                       all levels of the determination review, and that more
                       can be done by DOE to expedite the process.


LEAK            Ecology has no assurance that an adequate investigation of a
INVESTIGATION   suspected leak from SST SX-102 was conducted because DOE did
WAS NOT         not document its investigation results.
DOCUMENTED
                Tank SX-102 was listed as a leaking tank for a short time in 1993
                after DOE identified a decrease in the tank’s liquid level.
                However, the tank was reclassified as “sound” later that year after
                DOE’s re-analysis of the waste level monitoring data and
                measurement of evaporation thermodynamics suggested that the
                tank had not leaked. As of September 1999, the tank was not
                interim stabilized. DOE estimated that the tank contained 224,000
                gallons of drainable liquid including 216,000 gallons of pumpable
                liquid hazardous and radioactive wastes as of March 1999.

                Our review of DOE’s SX Tank Farm Report identified that Tank
                SX-102 may have leaked in the past. The report states that


                                  64                           Report No. 2000-P-2000
distribution of contamination in the vadose zone for SST SX-102
indicates that the tank may have leaked at some time before the
mid-1970s. The report also states that the contamination detected
beneath the tank suggests that the leak created two plumes and the
plumes may have been the result of more than one leak. As a
result, the report recommends that the tank’s integrity classification
be revised from sound to assumed leaker.

However, the tank’s integrity classification was not revised to
assumed leaker as recommended by the report and Ecology staff
were unable to explain what actions DOE had taken in response to
the report’s findings on the tank. In response to our inquiry,
Ecology requested DOE to identify the actions it took to determine
whether the tank had leaked. In its response to Ecology’s request,
DOE stated:

       Tank SX-102 instrument data was re-evaluated.
       The in-tank information, primarily neutron ILL,
       showed no departure from the predicted
       evaporation rate so there were no changes to the
       tank classification. The technical staff at the time
       felt that the Cesium in the drywell could have
       come from a variety of sources other than an
       SX-102 leak, while the in-tank ILL data was
       fairly conclusive of an evaporation trend only.
       There was no procedure in place in 1996 to
       convene a full leak assessment panel or to
       issue a formal document of the assessment,
       so the tank remained classified as “sound,
       based primarily on the steady ILL data.

In order to determine whether the tank is currently leaking, we
reviewed: (i) waste level data for the tank covering the period of
over 18 years from January 1981 to April 1999; and (ii) evaluation
documentation supporting DOE’s reclassification of the tank in
1993 to a sound classification. While our review identified that the
tank’s waste level has been on a steady decrease for a period of
over 18 years, we found no evidence that the tank leaked during the
period. However, we were unable to verify that the tank’s current
sound integrity classification was correct because DOE did not
document its investigation of the suspected leak reported in the SX
Tank Farm Report.



                  65                           Report No. 2000-P-2000
                 With respect to the tank’s waste level decreases, we determined
                 that DOE evaluated the trend and concluded that the waste level
                 decrease was caused from evaporation of liquid in the tank.


INSUFFICIENT     We found that the weaknesses in leak detection occurred mainly
EMPHASIS         because Ecology has not placed sufficient emphasis on ensuring
PLACED ON LEAK   that DOE has implemented an effective leak detection and
DETECTION AND    investigation program. Although 58 of the SSTs do not have
INVESTIGATION    effective leak detection systems in operation, Ecology has not
PROGRAM          required DOE to establish a leak detection program for all SSTs
                 that meets State and Federal regulatory requirements.

                 In addition, Ecology has not provided sufficient oversight and
                 enforcement over DOE’s leak assessment activities. We
                 acknowledge that Ecology compliance staff conduct tank
                 inspections, review tank monitoring data, and coordinate with
                 DOE staff and contractors in response to suspected tank leaks that
                 are reported to Ecology. In addition, we acknowledge that DOE
                 did develop a new leak assessment process in response to
                 Ecology’s November 1998 Notice of Correction addressing
                 violations identified during an inspection of SST SX-104.
                 However, DOE’s inadequate response to the waste level decrease
                 in BY-105, continued inability to complete leak investigations
                 timely, and failure to not always document leak investigation
                 results show that Ecology needs to provide additional emphasis on
                 oversight and enforcement of leak assessment activities conducted
                 by DOE.


CONCLUSION       As noted in Chapter 2, at least 1 million gallons of highly toxic and
                 radioactive waste has leaked from 67 of Hanford’s 149 SSTs, some
                 of which has already reached the groundwater. Without effective
                 leak detection systems and an effective leak investigation process,
                 there is no assurance that tank leaks will be identified and
                 remediated timely. Minimizing the extent of leaks and an effective
                 leak investigation process for the SSTs are critical to preventing
                 additional groundwater contamination.

                 Further, DOE currently plans to use hydraulic sluicing to remove
                 most of the hard salt cake and sludge from SSTs with a sound
                 integrity classification. This process could cause additional
                 releases from tanks that are leakers. Therefore, it is essential that
                 the integrity classification for each SST is accurate in order to

                                   66                            Report No. 2000-P-2000
                  ensure future waste retrieval activities provide sufficient protection
                  to workers and the environment.


RECOMMENDATIONS   We recommend that the Regional Administrator:

                         5-1.Assist Ecology in preparing a strategy for
                         addressing DOE actions for SSTs not currently in
                         compliance with interim status leak detection
                         requirements. The strategy should consider
                         technical impractibility, and performance
                         capabilities of non-traditional leak detection
                         systems. Additional activities to be performed by
                         Ecology pursuant to this strategy should be
                         documented through the fiscal 2000/2001 PPA
                         process.

                         5-2.Negotiate with Ecology appropriate inspection and
                         enforcement responses to suspected tank leaks
                         under interim status requirements and document
                         these commitments through the fiscal 2000/2001
                         PPA process.


REGION’S AND      The Region and Ecology concurred with the recommendations and
ECOLOGY’S         provided an implementation schedule for each recommendation.
COMMENTS




                                    67                            Report No. 2000-P-2000
[This page was intentionally left blank]




                  68                       Report No. 2000-P-2000
                                                                                                                            EXHIBIT 1
  TIMELINE OF SELECTED FFACO MILESTONES FOR THE
 TWRS PROGRAM AND ACTUAL OR PROPOSED REVISIONS


             Complete Interim Stabilization of SSTs

                   FFACO         Revised     Revised
                                 FFACO       Consent Decree
                                 Mod. 6



                                                                   Start and Complete SST/DST Waste Treatment

                                                              FFACO Primary Path1


                                                                FFACO Alternative Path


                                                                                DOE Preferred Schedule for Waste Treatment




                                                                     Retrieve Waste From All SSTs

                                                                 FFACO


                                                                  DOE Operation and Utilization Plan Preferred Option




                                                                            Close All SSTs

                                                                                    FFACO



      1986    1989            1995         2000 2002 2004   2007 2009 2012          2018       2024 2028      2033
                                                                                                                                     2047
             FFACO                                                                                                   2036
             SIGNED
                                                                                                              End of 50 yr. life
         End of 20 yr. life                                                                                     for last DSTs
           for last SSTs                                                                                      placed in service
         placed in service




1 The FFACO primary path requires completion of treatment of Low Activity Waste by 2024 and High
Level Waste by 2028.




                                                                                                                        Report No. 2000-P-00012
                                                                          69
[This page was intentionally left blank]




                  70                       Report No. 2000-P-00012
                                     APPENDIX A
                    AUDIT SCOPE AND METHODOLOGY

This section describes the audit scope and methodology, including sample selection for our
review of regulatory oversight of the TWRS Program.

We performed our audit in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States. Audit fieldwork was performed between
November 1998 and January 2000. The audit generally covered Ecology’s and the Region’s
management controls in effect for the 26-month period from July 1997 through September 1999.
We also reviewed relevant oversight and enforcement records of Ecology which covered periods
prior to and after this 26-month period which we deemed necessary for adequate evaluation of
program activities.

We interviewed State of Washington officials in Ecology’s Nuclear Waste Program and
discussed our audit results with an official in the State’s Office of the Attorney General. We also
interviewed officials in Region 10's Office of Waste and Chemicals Management and Office of
Regional Council. In addition, we interviewed officials from the State of Oregon’s Office of
Energy and the Yakima Indian Nation which are stakeholders of the Hanford Federal Facility.
We also reviewed applicable laws, regulations, and records maintained by Ecology and the
Region.

The scope included a review of Ecology’s and the Region’s management controls associated with
oversight and enforcement of: (i) FFACO milestones associated with the TWRS Program; and
(ii) DOE compliance with State and Federal hazardous waste regulations applicable to interim
status tank systems. We obtained an understanding of management controls through inquiries,
observations, and inspections of documents and records. We assessed the control environment,
policies and procedures, and risk of the two areas listed above.

The management control deficiencies that were identified in the audit are described in this report,
along with recommendations for corrective actions. We also reviewed the Region’s 1997 and
1998 annual FMFIA assurance letters to the Administrator.

FFACO Milestones

We focused on FFACO milestones for: (i) interim stabilization; (ii) waste treatment; (iii) waste
retrieval and closure of the tanks; (iv) DST capacity; and (v) resolution of flammable gas to
evaluate regulatory oversight of the TWRS Program.



                                                71                          Report No. 2000-P-00012
Interim Stabilization

We reviewed all modifications to major milestones for interim stabilization of the SSTs,
milestones M-05-00 and M-41-00, as well as interim milestones covering a period of over 10
years from May 1989 to September 1999. We also reviewed Ecology’s enforcement activities
covering this same period for missed milestones.

Waste Treatment

We reviewed compliance with waste treatment major milestones M-50-00, M-51-00, M-60-00,
and M-61-00 as well as judgmentally selected interim milestones. We selected key interim
milestones that were or may be effected by DOE’s August 1998 Phase I contract amendment.

Waste Retrieval and Tank Closure

Major milestone M-45-00 requires retrieval of the waste from the SSTs and their complete
closure. We reviewed compliance with the major milestone and judgmentally selected interim
and target milestones. Our sample included an interim milestone requiring retrieval of waste
from SST C-106. The sample also included key interim and target milestones that may be
effected by DOE’s August 1998 Phase I contract amendment.

DST Capacity

In order to determine whether DST space requirements for support of waste retrieval and
treatment had been adequately evaluated, we reviewed compliance with major milestones
M-46-00D and M-46-00E. These milestones required DOE to submit annual DST volume
projections to Ecology by September 30, 1997 and 1998.

Flammable Gas Resolution

Major milestone M-40-00 requires mitigation/resolution of tank safety issues for high priority
Watch List tanks. We judgmentally selected interim milestone M-40-09 for review because it
required resolution of a USQ involving flammable gas by September 1998.

Compliance with State and Federal Regulations

In order to evaluate oversight and enforcement of DOE compliance with Washington’s and
EPA’s hazardous waste regulations for interim status tank systems, we reviewed: (i) response
actions for safety issues involving DST SY-101; (ii) inspection coverage for the SSTs and DSTs
and enforcement responses to violations; (iii) leak detection systems in use for the SSTs and
DSTs; and (iv) the response process for actual and suspected tank leaks.




                                               72                         Report No. 2000-P-00012
DST SY-101 Safety Issues

During the audit, serious safety issues involving DST SY-101 came to our attention. As a result,
we reviewed compliance and enforcement documents and records for the tank covering the
period from December 1997 to September 1999.

Inspections

To evaluate the adequacy of Ecology inspections, we reviewed all Hanford SST and DST
inspections performed by Ecology between January 1992 and February 1999. We used the same
inspections to evaluate the adequacy and timeliness of Ecology enforcement taken as a result of
DOE violations of State and Federal hazardous waste laws and regulations.

Leak Detection Systems

We reviewed DOE’s leak detection system operating specification documents for all 177 SSTs
and DSTs covering tank operations for the period from July 1997 to June 1999.

Leak Response Process

Of the 67 SSTs that were designated as assumed leakers, three of the tanks (BY-105, BY-106,
and SX-104) were not interim stabilized as of January 1999. We selected all three tanks for
review because they had been designated as assumed leakers since the 1980's.

Two other SSTs (SX-102 and SX-109) were selected for review because preliminary information
obtained during our fieldwork indicated that adequate investigations may not have been
conducted into suspected leaks from the tanks.

We also selected one other SST (B-111) for review because the tank was designated as an
assumed leaker in 1978, was suspected of leaking again in 1997, and was under investigation
during our fieldwork.




                                               73                         Report No. 2000-P-00012
[This page was intentionally left blank]




                  74                       Report No. 2000-P-00012
                        APPENDIX B
REGION 10 AND STATE DEPARTMENT OF ECOLOGY
      RESPONSE TO THE DRAFT REPORT




   Attached are the Region’s and Ecology’s response to the draft report.




                                    75                         Report No. 2000-P-00012
[This page was intentionally left blank]




                  76                       Report No. 2000-P-00012
                            UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                                  REGION 10
                                     1200 Sixth Avenue, Seattle WA 98101

                                                     February 22, 2000



Reply To
Atm Of: WCM- 127

Truman R. Beeler, Divisional Inspector General for Audits
United States Environmental Protection Agency
Office of the Inspector General for Audits
Western Audit Division
75 Hawthorne Street
19th Floor, Mail Code I-1
San Francisco, CA 94106-3901


Re:     Concurrence with Draft Report on the Tank Waste Remediation System (TWRS)
        Program for the Hanford Federal Facility
        EPA/Ecology ID No. WA7 89000 8967


Dear Mr. Beeler:

             EPA Region 10 (EPA) and the Washington State Department of Ecology Nuclear Waste Program (Ecology) are in
          receipt of your January 21, 2000 memo requesting comment and concurrence with the referenced draft audit report.
          After review of the report and each of the recommendations, we concur in full with both the facts as presented in each
          finding, and with the associated recommendations. EPA and Ecology fully support the findings identified in the audit
          report, particularly the lack of progress on the part of Department of Energy (DOE) in addressing the significant threats
          posed by Hanford tank wastes. We intend to move forward in a timely manner with each of the recommendations, and
          believe our current activities, described below. demonstrate our resolve to address delays in the TWRS program. For
          recommendations based upon Performance Partnership Agreement (PPA) commitments, we expect to begin these
          discussions in the near future and conclude with a revised PPA document by mid-summer, 2000, consistent with our
          established PPA cycle. Further details of our response activities are enclosed.

            As documented in the audit report, Ecology and EPA have been engaged in negotiations with the Department of
          Energy (DOE) to establish milestones in the Hanford Federal Facility Agreement and Consent Order (Tri-Party
          Agreement) relating to tank waste retrieval, construction and operation of a tank waste treatment system, and
          compliance concerns related to the RCRA Land Disposal Restriction (LDR) program. Despite extensive efforts on the
          part of both agencies, these negotiations concluded on January 31, 2000 with no agreement reached. DOE's eleventh-
          hour proposals for both tank waste treatment milestones and LDR dispute resolution served only to reinforce EPA's
          and Ecology's belief that DOE remains unwilling to commit to necessary work and be accountable for progress toward
          enforceable milestones. As a result, Ecology asked EPA to join in development and issuance of a final dispute
          determination to resolve these issues. EPA responded in a February 3, 2000 letter to Ecology strongly




                                                                                            Report No. 2000-P-00012
endorsing Ecology's position, and stating in no uncertain terms EPA's concern with DOE failures to complete work,
fulfill milestone commitments, and demonstrate accountability for progress with Hanford environmental cleanup. We
believe these clear and decisive positions established by EPA and Ecology with respect to tank waste and LDR
compliance are fully consistent with recommendations in the audit report, and reflect our commitment to
implementing the audit recommendations. Noted communications between EPA and Ecology are enclosed for your
information.

   Finally, we would like to thank you for the opportunity to work closely and collaboratively with you and your staff
throughout the audit process, including development of effective and implementable recommendations. We feel
confident that the final report will be an important asset to us as we continue to work toward resolving Hartford tank
waste issues. Should you have any questions, please feel free to contact us at (206) 553-1847 or
(360) 407-7150 , respectively.


Sincerely,

(Sig.)                                                  (Sig.)
Richard Albright, Director                               Mike Wilson, Program Manager
Office of Waste and Chemicals Management                 Nuclear Waste Program
EPA Region 10                                            Washington Department of Ecology

Enclosures (3)

cc: Janet Kesler, Audit Coordinator, Region 10




                                                          78




                                                                                   Report No. 2000-P-00012
                                              EPA Region 10
                                      Hanford Inspector General Audit
                                      Tank Waste Remediation System
                                  Recommendation Implementation Schedule



Recommendation 1:

       Negotiate with Ecology to address oversight and enforcement responsibilities regarding DOE compliance with
       FFACO and RCRA requirements as part of the Fiscal 2000/2001 PPA process.

       Region 10 will initiate these discussions with Ecology during the second quarter of EPA's FY2000 (all
       subsequent commitment dates refer to the federal fiscal year) as part of the established PPA process. A revised
       PPA including agreed-upon responsibilities will be finalized during the third quarter of FY2000.

Recommendation 2:

       Consult with EPA National Program Managers to determine what action can be taken at the EPA Headquarters
       level to achieve a higher priority, including receiving funding, on cleanup of the Hartford tanks.

       In conjunction with Ecology and resolution of Tn-Party disputes. EPA will communicate with one or more
       national program mangers in the Office of Solid Waste and Emergency Response, Office of Enforcement
       and Compliance Assurance, and/or the Office of the Administrator in the second or third quarter of FY2000.
       Timing and content of this request will be dependant on prowess of tank waste TPA issues resolution.

Recommendation 3:

       Report the weaknesses in the Hanford TWRS Program as a management control deficiency in the annual
       Federal Managers Financial Integrity Act assurance letter to the EPA Administrator.

       Region 10 will incorporate weaknesses in the Hanford TWRS program as potential FY2000 vulnerabilities
       as part of mid-year update in the third quarter of FY2000 to the Management Integrity Act 1999 Assurance
       Letter, issued October, 1999. We believe an update to the 1999 letter better reflects the significance and
       timing of current tank waste development than including the TWRS program in the 2000 Assurance Letter.

Recommendation 4:

       Negotiate Fiscal2000/2001 PA commitments with Ecology as necessary to oversee TWRS Program safety
       issues.




                                                      79




                                                                                         Report No. 2000-P-00012
 See response to Recommendation 1 above.

Recommendation 5

       Establish annual EPA and Ecology inspection commitments through the Fiscal 2000/2001 PPA
       process in accordance with the Compliance Assurance Agreement Between the Washington
       Department of Ecology and the United States Environmental Protection Agency for the Hazardous
       Waste Program (1997), including a mid-year and end-of-year review of commitment.

       See response to Recommendation 1 above. In addition, EPA and Ecology will complete a review of
       commitment in the FY2000 mid-year and end-of-year meetings in the second and fourth quarters of
       FY2001. This schedule will be consistent with establishing a final update to the 2000/2001 PPA in
       the third quarter of FY2000.

Recommendation 6:

       Assist Ecology in preparing a strategy for addressing DOE actions for SSTs not currently in
       compliance with interim status leak detection requirements.

       EPA and Ecology will develop this strategy and incorporate any resulting actions into the updated
       PPA to be completed during the third quarter of FY2000.

Recommendation 7:

       Negotiate with Ecology appropriate inspection and enforcement responses to suspected tank leaks
       under interim status requirements and document these commitments through the FY2000/2001 PPA
       process.

  See response to Recommendation 1 above.




                                                  80




                                                                               Report No. 2000-P-00012
                   UNITED STATES ENVIRON MENTAL PROTECTION AGENCY
                                      REGION 10
                                   1200 Sixth Avenue
                                   Seattle, WA 98101

                                             March 10, 2000

Reply To
Attn Of: WCM- 127

Truman R. Beeler, Divisional Inspector General for Audits
United States Environmental Protection Agency
Office of the Inspector General for Audits
Western Audit Division
75 Hawthorne Street
19th Floor, Mail Code I-1
San Francisco, CA 94106-3901

 Re:     Updated Concurrence with Draft Report on the Tank Waste Remediation System
         (TWRS) Program for the Hanford Federal Facility
         EPA/Ecology ID No. WA7 89000 8967

Dear Mr. Beeler:

  In response to your verbal request through Mike Owen of your office to update the EPA and Ecology concurrence with
the draft final report cited above, please find a revised attachment to our February 22, 2000 concurrence letter that
includes the proposed response to each audit recommendation.

  Should you have any questions, please feel free to contact us at (206) 553-1847 or (360) 407-7150, respectively.


Sincerely.

 (Sig.)                                                 (Sig.)
 Richard Albright, Director                                                              '-
                                                            Mike Wilson, Program Manager
  Office of Waste and Chemicals Management                  Nuclear Waste Program
  EPA Region 10                                             Washington Department of Ecology

        Enclosures (3)

  cc: Janet Kesler, Audit Coordinator, Region 10




                                                   81




                                                                                Report No. 2000-P-00012
                                         EPA Region 10
                                 Hanford Inspector General Audit
                                 Tank Waste Remediation System
                             Recommendation Implementation Schedule



Recommendation 1 (Chapter 2, Recommendation 1):

       Negotiate with Ecology to address oversight and enforcement responsibilities regarding DOE
       compliance with FFACO and RCRA requirements as part of the Fiscal 2000/2001 PPA process.

       Region 10 will initiate these discussions, addressing items a.) and b.) of the recommendation,
       with Ecology during the second quarter of EPA's FY2000 (all subsequent commitment dates refer
       to the federal fiscal year) as part of the established PPA process. A revised PPA including agreed-
       upon responsibilities will be finalized during the third quarter of FY2000

Recommendation 2 (Chapter 2, Recommendation 2):

       Negotiate with Ecology through the Fiscal 2000/2001 PPA process specific enforcement or other
       programmatic actions directed towards timely resolution of tank waste treatment issues and
       establishment of appropriate enforceable milestones.

       See response to Recommendation 1 above. In addition, EPA and Ecology have already initiated
       efforts in response to this recommendation as illustrated by EPA's February 3, 2000 letter to
       Ecology committing EPA support for a final tank waste determination for TPA milestones. EPA
       and Ecology are continuing close collaboration and communication as resolution of tank waste
       milestone and Land Disposal Restriction reporting requirement disputes continues.

Recommendation 3 (Chapter 2, Recommendation 3):

       Consult with Ecology prior to and during FFACO change negotiations during FY2000 to develop
       appropriate language addressing mitigation or prevention of environmental risks associated with
       extending waste treatment, waste retrieval, and closure milestones included in DOE FFACO
       change packages.

       EPA will negotiate through the PPA process described in the response to Recommendation 1
       above appropriate levels of consultation during FY2000 to address this recommendation. In
       addition, EPA will address this recommendation during EPA review of TPA change packages for
       major milestones relating to tank wastes.




                                                   82




                                                                                Report No. 2000-P-00012
       EPA and Ecology are already engaged in responding to this recommendation through joint
       participation in current negotiation of tank waste treatment and retrieval milestones.

Recommendation 4 (Chapter 2, Recommendation 4):

       Consult with EPA National Program Managers to determine what action can be taken at the EPA
       Headquarters level to achieve a higher priority, including receiving funding, on cleanup of the
       Hanford tanks.

       In conjunction with Ecology and resolution of Tri-Party disputes, EPA will communicate with one
       or more national program mangers in the Office of Solid Waste and Emergency Response, Office
       of Enforcement and Compliance Assurance, and/or the Office of the Administrator in the second
       or third quarter of FY2000. Timing and content of this request will be dependant on progress of
       tank waste TPA issues resolution.

Recommendation 5 (Chapter 2, Recommendation 5):

       Report the weaknesses in the Hanford TWRS Program as a management control deficiency in the
       annual Federal Managers Financial Integrity Act assurance letter to the EPA Administrator.

       Region 10 will incorporate weaknesses in the Hanford TWRS program as potential FY2000
       vulnerabilities as part of mid-year update in the third quarter of FY2000 to the Management
       Integrity Act 1999 Assurance Letter, issued October, 1999. We believe an update to the 1999
       letter better reflects the significance and timing of current tank waste development than including
       the TWRS program in the 2000 Assurance Letter.

Recommendation 6 (Chapter 3, Recommendation 1):

       Negotiate Fiscal2000/2001 PPA commitments with Ecology as necessary to oversee TWRS
       Program safety issues.

         See response to Recommendation 1 above.

Recommendation 7 (Chapter 3, Recommendation 2):

       Review Ecology's progress toward meeting these commitments during mid-year and end-of-year
       PPA evaluations. It is important that the commitment address Ecology's safety position staffing
       shortage.

       EPA will address this recommendation through the mid-year review meetings, and provide
       documentation in mid-year and end-of-year reports.

                                                   83




                                                                                 Report No. 2000-P-00012
Recommendation 8 (Chapter 4, Recommendation 1):

       Establish annual EPA and Ecology inspection commitments through the Fiscal 2000/2001 PPA
       process in accordance with the Compliance Assurance Agreement Between the Washington
       Department of Ecology and the United States Environmental Protection Agency for the
       Hazardous Waste Program (1997), including a mid-year and end-of-year review of commitment.

       See response to Recommendation 1 above. In addition, EPA and Ecology will complete a review
       of commitment in the FY2000 mid-year and end-of-year meetings in the second and fourth quarters
       of FY2001. This schedule will be consistent with establishing a final update to the 2000/2001 PPA
       in the third quarter of FY2000.

Recommendation 9 (Chapter 5, Recommendation 1):

       Assist Ecology in preparing a strategy for addressing DOE actions for SSTs not currently in
       compliance with interim status leak detection requirements.

       EPA and Ecology will develop this strategy and incorporate any resulting actions into the
       updated PPA to be completed during the third quarter of FY2000.

Recommendation 10 (Chapter 5, Recommendation 2):

       Negotiate with Ecology appropriate inspection and enforcement responses to suspected tank leaks
       under interim status requirements and document these comrmtments through the FY2000/2001 PPA
       process.

  See response to Recommendation 1 above.




                                                  84




                                                                              Report No. 2000-P-00012
                                            STATE OF WASHINGTON

                                 DEPARTMENT OF ECOLOGY
                                 P.O. Box 47600 OIympia, Washington 98504-7600
                             (360) 407-6000 TDD Only (Hearing Impaired) (360) 407-6006

        January 31, 2000

        Mr. Chuck Clarke, Regional Administrator
        U. S. Environmental Protection Agency, Region 10
        1200 Sixth Avenue
        Seattle, Washington 98101

        Dear Mr. Clarke:

        RE: Hanford tank waste treatment negotiations and associated Land Disposal Restrictions
        dispute under the Hanford Federal Facility Agreement and Consent Order (HFFACO)

        As you know, negotiations with the U. S. Department of Energy (DOE) regarding its Hanford site
        high-level radioactive tank wastes have been in progress throughout this past year with little
        success. Today, the period for concluding these negotiations expired with no agreement reached.
        Consequently, by February 14, 2000, I expect to issue a Final Determination requiring that DOE
        move forward in the construction and operation of a tank waste treatment complex and that wastes
        are retrieved from DOE's leaking single-shell tanks in a timely manner.

        I am writing you today to ask for your assistance in ensuring that the environmental and human
        health risks posed by DOE's leaking tanks, and DOE's seeming inability to bring its facilities into
        compliance with hazardous waste law are not aggravated by further delay. Specifically, I am
        requesting that the Environmental Protection Agency join the Department of Ecology in the
        development and issuance of this Determination and our closely associated Determination
        regarding DOE compliance with “RCRA" Land Disposal Restrictions. Your assistance on this
        critical environmental compliance project would be of great help, and would be deeply appreciated
        by Governor Locke, Attorney General Gregoire, I, and the citizens of the State. I would be pleased
        to meet with you to discuss this issue further and to respond to any questions you or your staff may
        have.
Sincerely,

(Sig.)
Tom Fitzsimmons
Director

cc:    Carol Browner, USEPA HQ
       Governor Gary Locke
       Attorney General Christine Gregoire
       Merilyn Reeves, HAB
       Washington Congressional Delegation
                                                       85




                                                                                         Report No. 2000-P-00012
                   UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                       REGION 10
                                  1200 Sixth Avenue Seattle
                                      Washington 98101

                                             February 3, 2000
Reply To
Attn Of: ORC-158

Tom Fitzsimmons, Director
State of Washington Department of Ecology
P.O. Box 47600
Olympia, Washington 98304-7600

            Re:    Hanford tank waste treatment negotiations and associated Land Disposal
                   Restrictions disputes under the Hanford Federal Facility Agreement and
                   Consent Order (HFFACO)

Dear Mr. Fitzsimmons:

   This is in response to your letter, dated January 31, 2000, requesting that the
Environmental Protection Agency (EPA) join the Department of Ecology (Ecology) in the
development and issuance of a final dispute determination under the HFFACO that would
require the Department of Energy (DOE) to move forward with construction and operation of a
tank waste treatment complex and retrieve wastes from Hartford's leaking single shell tanks in
a timely manner. You also asked if we would join you in issuing a final dispute determination
on DOE compliance with RCRA Land Disposal Restrictions (LDR). You can count on our
assistance and full support. EPA shares your concern that DOE has failed to make adequate
progress in addressing the significant threats posed by the Hanford tank wastes and must
commit to a program that ensures that the work is started and completed on schedule.

   The retrieval and treatment of the Hanford site high-level radioactive tank waste (HLW) is
the largest and most pressing environmental project in the DOE complex. It's priority is
underscored by the continuing failure of DOE's single-shell tanks (SST), resultant loss of HLW
to area soils and groundwater, the fact that DOE's adjacent double-shell tanks are nearing
capacity and design life, and the delays the tank waste program has experienced to date.

  It is appalling that after 18 months of negotiations we don't have agreement on a program to
address what certainly is one of the nation's most severe environmental problems. On January
31,2000, the final day of the negotiation period, DOE submitted its latest proposal for resolving
the dispute. It is clear from that proposal that DOE's position is that it will not commit to
complete the work necessary to address this




                                               86




                                                                         Report No. 2000-P-00012
compliance with LDR requirements is a critical complement to the tank waste milestones
to be established through the final determination.

   EPA stands ready to join the Department of Ecology in the development and issuance
of final determinations that will require DOE to move forward with construction and
operation of a tank waste treatment complex, retrieve wastes from DOE's leaking single
shell tanks in a timely manner, and ensure compliance with LDRs in a manner that
conforms to hazardous waste law, the Federal Facility Compliance Act, and the
HFFACO.

If you have any questions, please don't hesitate to call me at (206) 553-1234.


                                        Sincerely,
                                         (Sig.)
                                        Chuck Clarke
                                         Regional Administrator



cc:     Richard T. French, DOE Office of River Protection
        Governor John Kitzhaber, State of Oregon
        Keith Klein, DOE Richland Field Office
        Attorney General Christine Gregoire, State of Washington
        Governor Gary Locke, State of Washington
        Merilyn Reeves, Hanford Advisory Board
        Lonnie Selam Sr., Yakama Nation
        Antone Minthorn, Confederated Tribes of the Umatilla
        Sam Penney, Nez Perce Tribe
        Washington Congressional Delegation




                                           87




                                                                   Report No. 2000-P-00012
                                  APPENDIX C
                              REPORT DISTRIBUTION




Office of Inspector General

Inspector General

EPA Headquarters Office

Assistant Administrator for Office of Solid Waste and Emergency Response
Assistant Administrator for Office of Enforcement and Compliance Assurance
Agency Followup Official
Agency Followup Coordinator
Associate Administrator for Regional Operations and State/Local Relations
Associate Administrator for Congressional and Legislative Affairs
Associate Administrator for Communications, Education and Public Affairs
Comptroller

Region 10

Regional Administrator
Director for Office of Waste and Chemicals Management
Audit Followup Coordinator
External Affairs Office
Regional Library

Ecology

Director for Washington Department of Ecology




                                             88                      Report No. 2000-P-00012
